<html>
<title> - TRUMP ADMINISTRATION'S RESPONSE TO THE DRUG CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   TRUMP ADMINISTRATION'S RESPONSE TO
                            THE DRUG CRISIS

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

                           Serial No. 116-07

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    


                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-619 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="abdbc4ebc8ded8dfc3cec7db85c8c4c685">[email&#160;protected]</a>                               
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
    Susanne Sachsman Grooms, Deputy Staff Director and Chief Counsel
          Elisa LaNier, Chief Clerk and Director of Operations
        Lucinda Lessley, Policy Director and Senior Investigator
                    Courtney French, Senior Counsel
                     Laura Rush, Deputy Chief Clerk
               Christopher Hixon, Minority Staff Director
                      Contact Number: 202-225-5051

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on March 7, 2019....................................     1

                               Witnesses

James W. Carroll, Jr., Office of National Drug Control Policy
    Oral Statement...............................................     7
Triana McNeil, Acting Director, Strategic Issues, Government 
  Accountability Office
    Oral Statement...............................................     8
Mike McDaniel, Director, Houston High Intensity Drug Trafficking 
  Area
    Oral Statement...............................................     9

The written statements for witnesses are available at the U.S. 
  House of Representatives Repository: https://docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the record throughout this hearing are 
  listed below, and available at: https://docs.house.gov.

  * 2018 Houston HIDTA Threat Assessment Report, submitted by 
  Rep. Cloud

  * Statement from Rep. Adam Kinzinger (R-IL), submitted by Rep. 
  Jordan

  * New York Times Article, "The Bronx's Quiet, Brutal War with 
  Opioids," Oct. 12, 2017, submitted by Rep. Ocascio-Cortez

  * Washington Post Article, "The Fentanyl Failure," March 13, 
  2019, submitted by Rep. Jordan

  * Questions for the Record (QFR's): Response from Director 
  James Carroll

 
                   TRUMP ADMINISTRATION'S RESPONSE TO
                            THE DRUG CRISIS

                        Thursday, March 7, 2019

                   House of Representatives
                  Committee on Oversight and Reform
                                           Washington, D.C.

    The committee met, pursuant to notice, at 10 a.m., 2154 
Rayburn House Office Building, Hon. Elijah Cummings (chairman 
of the committee) presiding.
    Present: Representatives Maloney, Norton, Clay, Lynch, 
Connolly, Krishnamoorthi, Rouda, Hill, Wasserman Schultz, 
Welch, Speier, Kelly, DeSaulnier, Gomez, Ocasio-Cortez, 
Pressley, Tlaib, Jordan, Amash, Gosar, Massie, Meadows, Hice, 
Grothman, Comer, Cloud, Gibbs, Norman, Higgins, Roy, Miller, 
Armstrong, and Steube.
    Chairman Cummings. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any time. The full committee hearing is 
convening to review the Trump Administration's response to the 
drug crisis. I now recognize myself for five minutes to give an 
opening statement.
    Good morning and thank all of you for being here at this 
very important hearing. I believe today's hearing is one of the 
most critical hearings we will hold in this entire Congress.
    In 2017, more than 70,000, let me repeat that, 70,000 
people died from drug overdoses in our country. This is the 
highest number we have ever had in the United States. Families 
across our great nation, in red states and blue states, and 
purple states, and big cities, suburbs, and rural areas are 
struggling with the devastating consequences of this 
generational crisis.
    On our committee, our members have many differences. But I 
am very proud that despite our differences, we have 
consistently worked on a bipartisan basis to address this 
crisis. For example, when the commission chaired by former New 
Jersey Governor, Chris Christie, issued its report back in 
2017, our chairman at that time, Trey Gowdy, agreed to come to 
my district to hold a hearing where Governor Christie gave 
recommendations from the commission.
    I said on that day to Governor Christie, who -- and we do 
not agree on a whole lot -- but I said to him that day, I said, 
``Governor, this is one of your finest moments.''
    Governor Christie warned us that this crisis, and these are 
his words, ``Is the greatest and broadest public health 
epidemic of our lifetime.'' Here is just a quote, ``to rise 
above the partisanship that we have in our country today.'' 
That is just what our committee has done.
    Last year, we wrote bipartisan legislation to reauthorize 
the Office of National Drug Control Policy. We strengthened 
existing authorities and increased funding to help expand 
treatment and address emerging threats. That would not have 
been possible without a key compromise that was brokered by 
Congressman Meadows and Congressman Connolly.
    In preparation for today's hearing, Ranking Member Jordan 
and his staff were extremely instrumental in bringing it 
together so that we could have an effective and efficient 
hearing with all of our witnesses on one panel. Mr. Ranking 
Member, I thank you. I really mean that. And I thank your 
staff, because you all worked very hard to make that happen. In 
fact, our two states, Maryland and Ohio, are among the hardest 
hit by the drug crisis.
    Ohio had the second highest rate of death from drug 
overdoses in the entire nation. More than 5,000 people died 
from drug overdoses in Ohio in 2017 alone. In my home state of 
Maryland, we ranked 7th in the rate of drug deaths, with more 
than 2,000 deaths from drug overdoses, including 761 in 
Baltimore alone.
    These include people like Joseph Banks. And listen to this 
one. Joseph Banks, a young, Baltimore City Police Officer died 
of a drug overdose just last month. Unfortunately, in contrast 
to our bipartisan urgency here in Congress, the White House 
office, charged with leading our Nation's efforts to combat the 
drug crisis, has been missing in action as deaths continue to 
mount.
    There is both a leadership vacuum and competence vacuum at 
the head of ONDCP. It pains me to even say that. But that is 
what I truly believe.
    Under Federal law, one of the most basic, important jobs of 
ONDCP is to issue a National Drug Control Strategy. However, in 
all of 2017, the Trump Administration failed to meet this most 
basic statutory requirement. In 2018, it was no different. No 
strategy was issued. Let that sink in for one moment: 70,000 
people. Every time I go to the Ravens' Stadium, I look around 
and I think, that is a stadium that holds about 70,000 people. 
We lose that many people every year.
    So for two years, more than half of President Trump's term, 
the White House had no National Drug Control Strategy. None. 
None. All while tens of thousands of people were dying, and the 
crisis was escalating every day. You know, we will talk a lot 
about deaths, but we also need to talk about, not only the 
dead, but the living. The people who are in the pipeline for 
death. The people that are in so much pain they do not even 
know they are in pain. So there was no sense of urgency. There 
was no sense of passion or purpose.
    Finally, this past January, the White House issued its 
long-awaited strategy. But when we got it, we could see 
immediately that it was no strategy at all. It was a 23-page 
pamphlet. It fails to meet even the most basic requirements in 
the law. It doesn't. I do not think anybody in this room, we 
legislators, if we were presented with this would be satisfied 
if our staff presented this to us.
    For example, it does not include detailed goals or 
objectives to combat the drug crisis. Today, the Director of 
ONDCP, James Carroll, is finally, finally appearing before the 
committee, but it was not easy to get him here. Last year, I 
repeatedly asked for Mr. Carroll to testify before us as the 
Acting Director of ONDCP in 2018, but he refused.
    In January, shortly after I became chairman, I sent him a 
letter inviting him to testify, but we delayed the hearing to 
accommodate his last-minute trip to China to examine issues 
related to opioids. However, after we arranged for Director 
Carroll to appear today, he sent a letter saying that his 
attendance was, ``conditional'' on his demand to testify on his 
own panel without experts from the GAO.
    That was despite the fact that Chairman Meadows held a 
hearing in 2015 with the previous head of ONDCP and GAO both on 
the same panel. A few days after that, Mr. Carroll sent another 
letter asking for yet another delay.
    Mr. Carroll, I must tell you, that I at least wonder 
whether your priorities might be misplaced. Think about all 
those days and weeks and months you spent avoiding and delaying 
today's hearing. Trying to fight us with regard to your 
appearance. That was a waste of everybody's time. And one thing 
I will say to this committee. I want it to be clear. I am not 
wasting your time. Life is short. And we want to be effective 
and efficient in what we do.
    So all the while, you could have been focused on developing 
a real strategy with concrete goals and measurable outcomes. 
You could have been focusing on complying with the law that the 
Congress, that we, passed. You could have been focused on 
saving the lives of tens of thousands of your fellow Americans. 
But you squandered that opportunity. Those days are lost 
forever. Just like the tens of thousands of our friends, our 
colleagues, our children, and our family members. So more than 
190, every single day are dying. In fact, if today's hearing 
lasts for just two hours, 15 people will die while we are 
sitting here explaining why we had no strategy for two years 
and still do not really have one today.
    Mr. Carroll we are going to ask you some tough questions 
today, because that is our job. And I pray that we will do this 
in a bipartisan way. So when you respond, you have a choice to 
make. You can either buckle down and work with us. So help me 
God, we want to work with you. And we are happy to do that. It 
is up to you. All of the members of this committee on both 
sides of the aisle want to work with you. We want you to be 
successful. It is important to us. We are your authorizing 
committee, and we want to collaborate to battle this crisis. We 
need to succeed. We have no choice.
    So as I close, I want to make it clear that I want to thank 
the many dedicated professionals at ONDCP who are working day 
in and day out to tackle this unrelenting crisis we face. And 
again, and I mean it from the depths of my heart, I do 
sincerely thank the ranking member for his assistance in 
pulling this hearing together. He basically saved us quite a 
bit of time, and we will be able to hopefully do this in an 
effective an efficient manner.
    With that, I recognize, Distinguished Ranking Member, Mr. 
Jordan.
    Mr. Jordan. I thank the chairman, and I appreciate the 
chairman and his staff wanting to work with us to put this 
together. And I appreciate your leadership on this. This is 
certainly critical. I know how hard our state has been hit as 
the Chairman's state. And so, we look forward to hearing from 
our witnesses. And the tough questions the chairman talked 
about being asked. But before I get into my opening statement, 
Mr. Chairman, I did want to raise a separate issue with you. 
Last week at our hearing, you made a --with our witness --you 
made a, I think a good point. You said to the witness that if 
he misled this Congress, that you were going to hold him 
accountable.
    Mr. Meadows and I sent a letter to the Justice Department 
highlighting at least six times where we felt a witness did 
just that, misled this Congress and made false statements. Last 
night, The Wall Street Journal reported at 11:56 p.m. that Mr. 
Cohen told his lawyer to seek a pardon from the President. When 
Mr. Cohen was here last week, he said, ``I've never asked for 
and nor would I accept a pardon from the President.'' Clearly, 
another lie. So we are up to seven. And I am just wondering 
what the chairman plans to do after his statement last week to 
the witness, where he said, ``If you come here and say things 
that are not accurate, I will hold you accountable.''
    Chairman Cummings. No, no. That is not what I said. I said, 
``I will nail you to the cross.'' That is what I said. If you 
have not learned anything about me --
    Mr. Jordan. Well, I am asking what did it mean?
    Chairman Cummings. I am going to answer your question now. 
Let me be clear. I do things in a very deliberate and very 
careful manner. I believe in integrity and carefulness. I have 
read your letter. I am going through the transcript, and I will 
make decisions and announcements with you. All right, are you 
finished? Were you finished?
    Mr. Jordan. No, I have got my opening statement.
    Chairman Cummings. Oh, I thought you were finished. Okay, 
go ahead.
    Mr. Jordan. I made clear, Mr. Chairman. I think it is 
important, just like you said. That when witnesses come in 
front of the Congress --
    Chairman Cummings. Well, I --
    Mr. Jordan [continuing]. that they are honest with you.
    Chairman Cummings. I just answered you. Did I not just 
answer you?
    Mr. Jordan. You said you are going to do something. You did 
not say what you were going to do.
    Chairman Cummings. I said that, again, let me say it 
slowly. I am a very deliberate and careful person. I believe in 
integrity. I refuse to do what I have seen done in this 
committee over the years. Where people go out and make 
headlines and then we have a hearing trying to come up with the 
facts to match it. I will do it. I will take my time, go 
through it, because I want credibility with the American 
people.
    Mr. Jordan. And so do I.
    Chairman Cummings. All right, that's it.
    Mr. Jordan. So do I, Mr. Chairman.
    Chairman Cummings. I'll give you a few minutes.
    Mr. Jordan. I want to thank our witnesses for joining us 
this morning. Our country is in the midst of an opioid epidemic 
that his hit close to home for so many Americans.
    In 2017, there were 4,854 total unintentional drug overdose 
deaths in Ohio alone. Illicit fentanyl and related drugs were 
involved in more than 70 percent of those deaths. This is a 
problem both Chairman Cummings and I share and are committed to 
addressing.
    As such, I am glad that we have Director Carroll with us at 
the committee this morning, and I look forward to hearing about 
your office and its plan to combat the drug crisis our Nation 
faces. Director Carroll oversees the Office of National Drug 
Control Policy, which was reauthorized last Congress by this 
committee on a bipartisan basis.
    While it is hardly the only office within the 
administration focused on combating drug addiction, it plays a 
crucial role in this effort. And we must ensure that it 
succeeds in its mission. Now the title of this hearing is, 
``The Trump Administration's Response to the Drug Crisis.'' But 
we can all agree that this Nation is facing a crisis. We have 
said it several times already this morning. It is not a crisis 
that started on January 20th, 2017. It is a crisis that has 
been years in the making and one that continued to worsen under 
the prior administration.
    The Obama Administration demoted the ONDCP from a cabinet-
level position in 2009. A 2016 GAO report found the Obama's 
2010 National Drug Control Strategy made moderate progress but 
none of the strategy goals have been achieved. More recently, 
in response to the devastating increase in drug overdose deaths 
and opioid misuse, important and timely changes were enacted to 
address the crisis.
    For instance, the Trump Administration declared a public 
health emergency. Congress has passed legislation providing 
funding directly aimed at the crisis and Federal agencies have 
taken aggressive steps geared toward the scaling back of opioid 
use. In 2017, the President convened a commission on combating 
drug addiction and the opioid crisis. And last March, the 
President announced an initiative to stop opioid abuse and 
reduce drug supply and demand.
    Additionally, law enforcement agencies across Federal, 
state, and local entities continue to work tirelessly to 
prevent the flow of illicit drugs into the country by 
patrolling our borders and disrupting drug trafficking 
organizations.
    In January, Customs and Borders Protection agents arrested 
an individual trying to cross the border into the country from 
Mexico with a record amount of fentanyl. The agencies --enough 
fentanyl --think about this, enough fentanyl to kill 57 million 
Americans. We know that combating the supply and demand of 
drugs in this country is not a one-size-fits-all approach, but 
a great place to start would be doing what we said, actually 
securing the border.
    The opioid crisis does not strike each state or each 
community in the same way. What prevention or enforcement 
efforts may be effective in one area may not work in another. 
It is imperative that we equip states and communities with the 
resources need to reduce drug supply, prevent illicit drug use, 
and provide needed treatment. That is not a problem that 
funding alone can solve. We need a thoughtful --thoughtfully 
empower each community to address its unique needs. An 
essential key to curbing illicit drug use is coordination 
between Federal, state, and local entities to that end.
    Both of the grant programs, housed in ONDCP, the Drug Free 
Community Program and the High Intensity Drug Traffic Area 
Program, play a critical role in assisting and helping local 
communities in from preventing and reducing illegal drug supply 
and demand.
    I want to note that I appreciate the Chairman having two 
hearings this week on important issues that our committee has 
legislative jurisdiction over. When this committee does its 
best work, it is done on a bipartisan basis and it focuses on 
improving Government efficiency and effectiveness.
    However, while the mission of ONDCP is crucial and our 
vigilance is proper, I think it is important to note that just 
last year, we reauthorized ONDCP. In that reauthorization, 
ONDCP was equipped with various reforms to ensure it has an 
effective coordinating body. And I think, Mr. Chairman, you and 
I can both agree that we want the office to succeed.
    So while Oversight's focus here is certainly proper, I hope 
that we did not prematurely judge these efforts and remain 
optimistic about the progress that we all expect to see. That 
being said, I look forward to hearing from Director Carroll 
about how his office and his agency and his grant programs can 
effectively coordinate a response to the epidemic. This is a 
seminal public health crisis in our time. I also look forward 
to hearing from GAO and the HIDTA program. I want to thank all 
of you for the time that you have spent to be here, and I look 
forward to hearing from you in just a few minutes.
    Chairman Cummings. I want to thank our ranking member. I 
would like to briefly recognize our colleague, a representative 
from the great state of Texas, Mr. Cloud, who has a constituent 
testifying today. I yield the gentleman two minutes.
    Mr. Cloud. Thank you, Mr. Chairman. I have the distinct 
honor of introducing Michael McDaniel. He is the Director of 
the Houston HIDTA program, High Intensity Drug Trafficking Area 
Program. I want to compliment him on his long and distinguished 
career in law enforcement. But for the last eight years, he has 
been the lead at the HIDTA program that oversees 17 counties 
and five of which are in my district: Victoria, Rifuriou, 
Orantes, San Pat and Oasis. I know that you do great work with 
law enforcement throughout the region and look forward to 
hearing more from you today. Thanks for taking the time to be 
here.
    Chairman Cummings. I want to thank the gentleman and 
welcome Mr. McDaniel.
    Now I want to welcome the ONDCP Director James Carroll, 
Triana McNeil the Acting Director, Homeland Security and 
Justice of the Government Accountability Office, who is 
accompanied by Mary Denigan-Macauley, who is the Acting 
Director, Health Care, and Mike McDaniel, of course, the 
Director of the Houston High Intensity Drug Trafficking Area, 
who was ably introduced by our Representative Cloud. And I 
thank them for participating in today's hearing. If you all 
would please stand and raise your right hand.
    [Witnesses sworn.]
    Chairman Cummings. Let the record show that the witnesses 
answered in the affirmative, and I want to thank you. Now the 
microphones are very sensitive, so please speak into them 
directly. Make sure you turn them on when you get ready to 
talk.
    Without objection, your written statements will be made a 
part of the record. With that, Director Carroll, you are now 
recognized to give an oral presentation. Again, I try to be, I 
try to be flexible with our witnesses, so that you can get out 
what you want to say, but I would like for you to keep it 
within the five minutes. But I will try to work with you, if 
you work with us, all right, Mr. Carroll.

STATEMENT OF JAMES CARROLL, DIRECTOR OF OFFICE OF NATIONAL DRUG 
CONTROL POLICY

    Mr. Carroll. Thank you Chairman Cummings, Ranking Member 
Jordan and members of the committee. Thank you for inviting the 
Office of National Drug Control Policy to discuss the challenge 
America faces from the opioid epidemic and the broader 
addiction crisis.
    Addiction does not discriminate. It impacts people from all 
walks of life, regardless of race, religion, creed, socio-
economic status. Addiction and death from drug overdose are 
callously indifferent.
    This is truly a crisis impacting all Americans, and we must 
be relentless in our efforts to save the lives of fellow 
citizens. Chairman Cummings, as you just stated, over 70,000 
Americans lost their lives in 2017 to drug overdoses, 
approximately 192 people a day who have died from this.
    Overdose involving opioids have increased by almost 500 
percent since 1999. And the drug trafficking environment that 
we face today is exponentially more dynamic and more dangerous 
than it was just five years ago. The internet offers new and 
unique challenges. Drugs come into the country at a high volume 
through our mail system, commercial carriers, or smuggled 
across our land borders.
    The obstacles we face cannot be greater. The opioid 
epidemic, powerful synthetic drugs, the rising prevalence of 
psycho-active drugs, such as methamphetamine, and a stark 
increase in the availability and use of cocaine, to name just a 
few. To further complicate this, the environment is constantly 
changing in response to our actions. Almost instantly, 
traffickers respond to the countermeasures we implement.
    To address this crisis, I have retooled our approach, 
retooled our strategy, and our office to deal with this new 
environment. In January, we released the Trump Administration's 
National Drug Control Strategy. This strategy is much different 
from previous strategies and fundamentally improves on the 
priors. This strategy is a forward-looking document and has a 
clearly defined vision and broad metrics to assess the 
performance of the Federal Government.
    The Administration's strategy reflects an in-depth 
understanding of the addiction crisis, the means to save 
American lives today, and how we must actively anticipate the 
future evolution of this crisis.
    The 2016 National Drug Control Strategy, which was in place 
when I arrived, had only two broad and poorly defined goals. 
There were, indeed, numerical targets associated with each of 
these goals, 13 in fact. Of these targets, however, ONDCP had 
only met three of them and two of them had nothing to do with 
illicit drugs. There was no mention of priorities in the 
strategy and no strategic vision.
    It was not a strategy. It was a report card on drug use in 
America, and it was a failing one at that. Doing business the 
way we have for the past several decades was not going to work. 
A nation facing the greatest drug crisis in its history, 
demanding new thinking, a new approach, a new strategy, and a 
new ONDCP.
    In late January, I informed Congress of my desire to 
transform ONDCP's operating structure to better align with 
Congress' intent and vision for the office. This new structure 
reinforces the aspects of ONDCP that have been successful. It 
unifies our availability reduction and public health efforts to 
focus on tangible outcomes and allows ONDCP to focus on making 
drug policy. To bolster our public health expertise, I am proud 
to announce that for the first time, we are creating a public 
health unit with a chief medical officer to better coordinate 
efforts across the Federal Government.
    A robust public health unit with a focus on the importance 
of treatment and recovery is paramount to achieving this. I 
would like to thank the committee for its work to develop the 
most recent ONDCP reauthorization in 12 years. Your steadfast 
support of ONDCP positions the agency to meet its 
responsibilities to the American people.
    At ONDCP, we realize that the only criterion that really 
matters is reducing the number of death of Americans caused by 
these dangerous drugs. It is the primary focus of our efforts 
and will be the only true measure of our success. I appreciate 
the committee's ongoing interest in working with ONDCP, and I 
look forward to continuing to working with members of this 
committee. Thank you.
    Chairman Cummings. Thank you very much for staying within 
that five minutes, man. Thank you.
    Ms. McNeil?

STATEMENT OF TRIANA MCNEIL, ACTING DIRECTOR OF STRATEGIC ISSUES 
GOVERNMENT ACCOUNTABILITY OFFICE; ACCOMPANIED BY MARY DENIGAN-
MACAULEY, ACTING DIRECTOR OF HEALTH CARE, GAO

    Ms. McNeil. Chairman Cummings, Ranking Member Jordan, and 
members of the committee. I am pleased to be here today to 
discuss GAO's preliminary findings on the 2019 National Drug 
Control Strategy. And critical steps that ONDCP still needs to 
take to address deficiencies that we have previously 
identified.
    These deficiencies need to be addressed so that ONDCP can 
coordinate and oversee the efforts of the dozen plus agencies 
combating illicit drug use. This is a crises that resulted in 
70,000 deaths in 2017 alone. ONDCP is required to do a number 
of things based on the 2006 statute and the recent Support Act. 
ONDCP is required to develop the strategy, and it is also 
required to work with agencies to develop an annual drug 
budget.
    The 2006 statute which this strategy is based calls on 
ONDCP to, among other things: identify annual, measurable 
objectives with specific targets. Describe a performance 
measurement system to track progress. Include specific 
assessments to provide a baseline of illicit drug use and 
availability to enable ONDCP to see improvements throughout the 
year. And prepare five-year estimates on program and budget 
priorities.
    Based on our preliminary analysis, the strategy does not 
include many of these requirements. For example, it lacks 
annual, measurable objectives and specific targets. It lists 
seven broad measures of performance but does not indicate how 
they would be measured or how they relate to long term or short 
term goals.
    Some of the seven measures do not even have timelines. The 
strategy also is completely void of any performance measurement 
system. How can ONDCP track its own progress? How can ONDCP be 
held accountable without this critical system in place? Moving 
forward, we will attempt to answer these questions and others. 
Especially those centered around ONDCP's efforts to certify 
budgets without a national strategy. Since this 2019 strategy 
is the first since 2016.
    Chairman Cummings, Ranking Member Jordan, members of the 
committee, this concludes my prepared statement. I would be 
happy to respond to any questions you may have.
    Chairman Cummings. Thank you very much.
    Mr. McDaniel?

STATEMENT OF MICHAEL MCDANIEL, DIRECTOR OF HOUSTON HIGH 
INTENSITY TRAFFICKING AREA

    Mr. McDaniel. Chairman Cummings, Ranking Member Jordan, and 
distinguished members of the committee. I am honored to appear 
before you today to offer testimony highlighting the High 
Intensity Drug Trafficking Area Program, better known as HIDTA. 
And to also speak to the coordination of national drug control 
efforts by ONDCP.
    I have been involved in drug law enforcement for that past 
36 years, beginning as a police officer with the city of 
Houston and then 24 years as an agent with the Drug Enforcement 
Administration. I became -- I retired from DEA when I became -- 
the Houston HIDTA Director.
    I have been involved with the HIDTA program since it began 
in Houston in 1991. Without reservation, I can attest that this 
is the only law enforcement program in the country that 
successfully unites Federal, state, and local law enforcement, 
working side by side for one common cause and that is to 
disrupt and dismantle drug trafficking organizations.
    Houston HIDTA is one of the four HIDTAs in the state of 
Texas. The Houston HIDTA region essentially hugs the coastline 
of Texas from the Louisiana border down to the tip of Texas 
just north of Brownsville, Texas. Houston HIDTA targets are 
regional drug threats seen most harmful to our communities 
along with our maritime threats, our interdiction efforts, 
along our highway infrastructure, and drug seizures and arrests 
emanating from the U.S. Border Patrol checkpoints along the 
southwest border.
    Houston HIDTA is fortunate that we have not seen the opioid 
crisis ravage our communities to the degree that it has many of 
our other HIDTAs and to many of you in your districts. Our 
major threats in Houston HIDTA are methamphetamine, cocaine, 
and synthetic drugs.
    Each of the 32 HIDTAs across the country have an executive 
board comprised of an equal number of Federal, state, and 
local, and tribal agency heads that direct every HIDTA on a 
regional level as to how they will pursue their particular drug 
threats in their area.
    This leadership model creates stability for each executive 
board to quickly and efficiently adapt and react to emerging 
drug threats. The HIDTA program has also demonstrated success 
in development of other innovate and strategic partnerships in 
the public safety and public health realms. The HIDTA program 
is not arresting lower-end users and addicts but rather is 
trying to assist the addicts by pointing them toward effective 
treatment and make all attempts to educate them toward better 
alternatives. This is being accomplished through our strategic 
partnerships. The emerging partnerships between public health 
and public safety have never been more important to law 
enforcement and to the HIDTA program. And the HIDTA provides 
the perfect platform to promote those partnerships.
    The National Drug Control Strategy recently released by 
ONDCP promotes a focused and balanced approach, and we will 
work alongside of ONDCP to implement this strategy. The HIDTA 
program is an essential component of the National Drug Control 
Strategy. The 27 regional HIDTAs plus the five southwest border 
HIDTAs are now active in all 50 states with a recent inclusion 
of the state of Alaska.
    The HIDTAs across the country provide ONDCP with real time 
and direct access to all regional drug issues to enhance their 
coordinated implementation of the Nation's drug control 
strategy. ONDCP and the HIDTA program currently enjoy a 
collaborative and cooperative working relationship that has 
never been stronger, especially in the light of the recent 
confirmation of ONDCP Director James Carroll.
    HIDTA is working hand in hand with ONDCP toward an 
effective response to this Nation's opioid crisis. Over the 
past three years, there has been some disturbing discussions 
about moving the HIDTA program out from underneath ONDCP and 
into DEA. In my professional opinion, and as a retired DEA 
agent, I believe this move would be the end of a successful 
program.
    The HIDTA program does not adhere to the views or mandates 
of any one agency or existing position under ONDCP allows HIDTA 
the flexibility and adaptability to address emerging threats in 
a timely fashion. Removing HIDTA and the DFC from ONDCP would 
be cutting the legs out from under ONDCP, in my opinion. Make 
them very ineffective in their ability to oversee this Nation's 
drug strategy.
    Thank you for allowing me this opportunity to testify 
before you today. I look forward to answering your questions.
    Chairman Cummings. Thank you very much. I appreciate all of 
you all coming in within the five minutes. Just want to tell 
you. Listen again, I agree with you, with regard to HIDTA being 
moved. We have a great one in Baltimore as you probably well 
know.
    Ms. Norton, for five minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. This is, 
this is an exquisitely important hearing. And my questions 
begin with you, Mr. Carroll, Director Carroll. I served as head 
of an agency in a democratic administration and learned that 
the bucks stopped really with me, and that is all there was to 
it. So I am concerned that the failures of the Office of Drug 
Control Policy may be a failure in leadership. So that we are 
seeing no reduction in overdose deaths and you just heard a 
very negative report card from the GAO. I am very concerned 
that, that report card showed no way to measure, no way to 
know, even if we are making progress.
    So let me see what progress has been made. Early last year, 
a 24-year-old former Trump campaign worker, with no prior drug 
control experience was appointed deputy chief of staff of the 
office, replacing a career civil servant who was moved to make 
room for that person. Who made that decision? And have other 
experienced career, civil servants been reassigned to make room 
for political appointees?
    Ms. Norton. I am sorry, Director Carroll. I cannot hear 
you. Turn on your mic.
    Mr. Carroll. Can you hear me now? Okay, I am sorry. 
Congresswoman, can you hear me now?
    Ms. Norton. I can.
    Mr. Carroll. Thank you. Congresswoman, the 24-year-old 
deputy chief of staff to whom you refer, all of that happened 
prior to my arrival. Putting that person in place, including 
the removal of that person.
    Ms. Norton. Well have other experienced civil servants, 
since you have been, since you arrived, been moved to make room 
for political appointees for similar positions?
    Mr. Carroll. Quite frankly, it is just the opposite. I 
moved an experienced, career, SCS career professional into the 
deputy chief of staff role to help lead the agency there. The 
24-year-old that you mentioned, I had no involvement bringing 
them on board or dismissing them. As I said, all I have done is 
promote and bring into leadership roles, career SCS 
individuals.
    Ms. Norton. Now, in November 2017, the attorney general 
announced that Kelly Anne Conway would coordinate and lead the 
administration's efforts to combat opioids. Is Ms. Conway still 
coordinating and leading the Trump Administration's opioid 
efforts?
    Mr. Carroll. Thank you for the question. As you know, I 
started in February 2018, so six months after that 
announcement. I make the policy at ONDCP for the Nation on drug 
policy. Kelly Anne Conway is a wonderful asset to have, she is 
the primary communicator.
    Ms. Norton. Is she still leading and coordinating?
    Mr. Carroll. No ma'am. I coordinate and lead policy. She 
coordinates communications, as you see her on television 
multiple times a day.
    Ms. Norton. Is the opioid cabinet, which she apparently 
convened, is that still in existence? And is the acting 
director of the agency who also a career employee and policy 
expert was not invited to those meetings? Is that cabinet still 
in existence?
    Mr. Carroll. That is a communications cabinet. That is for 
the communicators at all the cabinet agencies to come together 
to give Ms. Conway, Mrs. Conway, all of the latest activity so 
she can communicate them to the public in such a fashion. We 
always send our communicators to that meeting as well.
    Ms. Norton. Has the cabinet or the agency produced any 
documents that would help us understand what you are doing to 
reduce opioid deaths?
    Mr. Carroll. Has the ONDCP?
    Ms. Norton. The cabinet or these cabinet meetings. Have any 
documents come out of these cabinet meetings, or for that 
matter, out of the agency measuring how you intend to reduce 
opioid deaths?
    Mr. Carroll. In terms of documents that Mrs. Conway might 
produce in terms of her communications strategy, I would not 
have access to those. And so, I refer you to her documents.
    Ms. Norton. No, I am talking about documents that would 
come out of those cabinet meetings, sir. Not personal 
documents.
    Mr. Carroll. I am not talking --
    Ms. Norton. I am trying to find out what has been produced 
from those meetings or elsewhere to show that there is a 
strategy for reducing opioid deaths which have continued to 
climb.
    Mr. Carroll. The --I do not know what documents Kelly Anne 
Conway produced.
    Ms. Norton. Are there any documents that you know of? 
Whether or not produced by Ms. Conway.
    Chairman Cummings. The gentlelady's time has expired, but 
you may answer that last question.
    Mr. Carroll. Could she repeat the last question?
    Chairman Cummings. Sure.
    Ms. Norton. I am trying --perhaps there were no documents 
that came out of Ms. Conway. How about documents that show how 
you intend to reduce opioid deaths in light of the report card 
you got from the GAO. Are there any documents that you could 
offer to this committee that would help us know that you are 
reducing opioid deaths?
    Mr. Carroll. Yes, ma'am.
    Ms. Norton. Can you provide them to the chairman or the 
committee?
    Mr. Carroll. Yes ma'am.
    Chairman Cummings. You may answer it.
    Mr. Carroll. Thank you. The National Drug Control Strategy 
sets out the vision and the strategic guidance to help reduce 
overdose deaths in America. The No. 1 focus of ONDCP is saving 
lives. The National Drug Control Strategy, the documents that 
we relied on to produce it and the documents that are 
forthcoming, the data supplement will be coming in a few weeks 
and the next measure with a quantifiable metrics that Chairman 
Cummings mentioned will be coming later this spring, 
absolutely.
    Chairman Cummings. Thank you very much.
    Mr. Cloud?
    Mr. Cloud. Thank you, Chairman. Again, thanks for being 
here today. Director McDaniel, you know as much as any, one of 
the major areas of concern when it comes to drug trafficking is 
south Texas. The area that we both work in. Law enforcement has 
what they call the ``fatal funnel'' where drugs come across the 
southern border, find their way to major arteries, come up 
through my district on to Houston and then throughout the 
Nation. And, you know, we know opioids and fentanyl are major 
concerns in the 2018 Houston HIDTA Threat Assessment report. It 
was mentioned, and in your testimony about meth, cocaine, 
synthetic drugs also being a major concern. And if it is all 
right with the chair, I would ask unanimous consent to submit 
the 2018 Houston HIDTA Threat Assessment report.
    Chairman Cummings. Without objection.
    Mr. Cloud. Thank you. This report says that as the drug 
market has become increasingly flooded with methamphetamines 
from Mexico, problems related to its use are becoming more 
transparent. For instance, staff and emergency departments in 
Victoria and Oasis counties in the southern Houston HIDTA 
reported methamphetamine as the primary drug which patients are 
seeking emergency services.
    This report also talks about human smuggling being a major 
issue. It says that most southern Houston HIDTA counties are 
affected to some extent. As human smugglers routinely bring 
illegal immigrants northwards from the border toward cities, 
such as Houston, where they are housed until their 
transportation fees have been paid.
    Recent reporting has confirmed what has been our fears for 
long, that often when they talk about their transportation fees 
being paid, they are paying with their bodies. This is 
certainly a tragic, and it relates to today's discussion that 
these cartels do not view this as anything but business, 
whether it is drugs or whether it is humans coming across our 
border. As a matter of fact, they foster this human crisis that 
we have at the border in order to tax our systems to get drugs 
across it easier.
    And so, my question to -- is how important is strong border 
security in enabling and equipping what you are trying to get 
done?
    Mr. McDaniel. It is extremely important to law enforcement 
and to Houston HIDTA for comprehensive border security package. 
And I am very appreciative of this committee and of Congress 
for providing us whatever resources we can get to strengthen 
that border to help us in all aspects of what we are 
encountering out there.
    Mr. Cloud. All right and we understand that border security 
needs to include a physical barrier. It needs to include boots 
on the grounds, technology, all those things in place. Where 
physical barriers have been put in place, we have seen 90 
percent reduction in foot traffic in a lot of areas. But there 
is always the discussion about tunnels and where they can climb 
over walls and tunnel under walls. Can you relate the 
difference between human trafficking and drug trafficking as 
that relates to?
    Mr. McDaniel. Would you clarify that?
    Mr. Cloud. Yes, in the sense of, are drugs coming through 
tunnels? Are humans coming through tunnels? What is?
    Mr. McDaniel. It has been my experience in my law 
enforcement career that primarily drugs are coming through the 
tunnels that are going underneath the barriers on the border. 
And if you can imagine, the cartels are spending millions of 
dollars to come up with an elaborate tunnel that goes from the 
Mexico side to the U.S. side. And it is not feasible for them 
to actually run human smuggling through those tunnels, because 
if some of those aliens get caught and apprehended, the first 
thing they can do is cooperate with law enforcement and tell 
them where that tunnel is. And something that may have taken a 
year and millions of dollars to build by the cartel, they do 
not want to allow that to happen. So they are using the tunnels 
primarily for drugs. I hope that answers your question.
    Mr. Cloud. Yes, it does. One of the habits we have, I guess 
as a Federal Government is coming up with these one-size-fits-
all approaches, and I think one of the great things that HIDTA 
does is it allows you to work with local law enforcement who 
understand the local issues. Could you describe why local 
discretion is critical to the program's success?
    Mr. McDaniel. We -- law enforcement -- has to have a 
comprehensive package. And we cannot have silos in law 
enforcement no more than we can have silos with treatment and 
prevention. But it is extremely important -- the HIDTA program. 
The reason it has been so successful is it gets state and 
local, Federal, and all those entities in one room working 
toward a common cause.
    And it gives the locals the same voice, but it is just 
amazing what can happen when we all bring our intelligence and 
our data bases together and working toward one common cause, 
and that is to disrupt drug organizations.
    Mr. Cloud. Well, thank you and my time is about up. But let 
me say, once again, thank you for your service.
    Mr. McDaniel. Thank you, sir.
    Chairman Cummings. Thank you very much. We will now hear 
from Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Mr. 
Carroll, on February 19th, President Trump declared a national 
emergency to fund his border wall which he has said will, 
``stop drugs from coming into our country.'' But the 
administration's own statistics show that crossing and 
apprehensions are at historic lows. Mr. McDaniel just indicated 
in response to Mr. Cloud's question that drugs are being 
funneled when they are not coming over --coming in at our 
lawful points of entry in tunnels, underneath walls, where we 
do have them along the border.
    In my home state of Florida, over 5,000 people have died 
from a drug overdose in just one year and the numbers are 
growing. Let me be clear, a border wall would not stop illegal 
drugs from coming into Florida. Florida is a peninsula. The 
vast majority of illegal drugs are coming into our country 
through our ports of entry. Despite President Trump's promise 
to do whatever it takes to combat the opioid crisis, his 
national emergency declaration would take $600 million from the 
Treasury Department's Drug Forfeiture Fund and $2.5 billion 
from the Department of Defense's Drug Interdiction Program. It 
would also, by the way, take $3.6 billion from our military 
construction budget.
    I chair the Military Construction and Veterans Affairs 
Appropriation subcommittee, and so I know, just how harmful 
these cuts would be to critical military projects and our 
service members. You are President Trump's principal advisor on 
drug control issues and as result, you have a say in how these 
critical funds are administered, correct? Correct? Mr. Carroll? 
Director Carroll? No, I am speaking to you.
    Mr. Carroll. Thank you. Thank you for the question. There 
is no question that the wall was needed.
    Ms. Wasserman Schultz. No, no. I am asking you a brief 
question. You have a say in how these critical funds are 
administered as these drugs are, yes?
    Mr. Carroll. Yes ma'am.
    Ms. Wasserman Schultz. Okay. Given the President's border 
wall declaration and the Trump Administration's plan to steal 
money from drug interdiction and drug forfeiture funds to build 
it, how can we take the President's declaration of a national 
public health emergency, which he declared related to the 
opioid crisis, which by the way killed 70,200 people in 2017 
alone from --who died of drug overdoses. When he is stealing 
millions of dollars from the funding to fight it, to fund a 
fake border emergency. That is my question.
    Mr. Carroll. Thank you. They are absolutely related. The 
public health emergency that was declared some time ago spoke 
to this crisis that we are facing and talked about the number 
of Americans that are dying. Increased --as I said at the 
beginning of the 500 percent increase over quite a period of 
time. That doubled in the last eight years, 10 years of 
previous administrations. The declaration of the national 
emergency on opioids brought public awareness and should have 
happened long ago. Now with the declaration of the border 
security, what that is doing is preventing access to one way.
    Ms. Wasserman Schultz. Okay, if I can just interrupt you 
for a second.
    Mr. Carroll. May I just answer one question about the 
point?
    Ms. Wasserman Schultz. I want to make sure --I have limited 
time. I want to make sure you answer my specific question. He 
is proposing to take --he is planning to take millions of 
dollars from drug interdiction and drug forfeiture to pay for a 
border wall when he supposedly has declared a national health 
emergency related to the opioid crisis. Those are incongruous 
actions. How can they be justified?
    Mr. Carroll. I disagree with you that they are incongruous. 
I think they are completely related. What we are seeing are 
drugs coming across into this country through every method 
possible.
    Ms. Wasserman Schultz. 90 percent --
    Mr. Carroll. Customs and borders protection----
    Ms. Wasserman Schultz. Director Carroll. Director Carroll, 
do you acknowledge that 90 percent of the drugs that come 
across our border come at our lawful points of entry?
    Mr. Carroll. Ma'am, 90 percent of the drugs that are 
captured. It is not 90 percent of the flow. There is a big 
difference between what is captured and the flow of drugs.
    Ms. Wasserman Schultz. Okay, but there is no evidence to 
suggest that we have drugs flowing over the border in between, 
in a significant way, as significantly as we are intercepting 
them at our ports of entry. And if you cut how, if you cut the 
funding for drug forfeiture funds and drug interdiction funds, 
how are we going to make sure that we can increase those 
numbers and prevent drugs from coming into our country? A wall 
is not going to cut it.
    Mr. Carroll. A wall will actually cut it. A wall will cut 
it.
    Ms. Wasserman Schultz. Even though Mr. McDaniel says that 
they are going under it.
    Mr. Carroll. If I can answer your question about our ports 
of entry and drugs coming between points of entry. The most 
recent data I have from Customs and Border Protection, which 
came out, I believe the beginning of this week. It could have 
been the end of last week, shows that just in, Fiscal Year 
2018, 400 pounds of fentanyl, which we talked about previously, 
which is so deadly, came between the ports of entry. So far --
    Ms. Wasserman Schultz. A few minutes ago --
    Mr. Carroll. Ma'am, I am trying to answer your question.
    Ms. Wasserman Schultz. Okay.
    Mr. Carroll. 91 pounds of fentanyl come through --
    Ms. Wasserman Schultz. Excuse me. Reclaiming my time.
    Mr. Carroll. And 8,000 pounds of cocaine.
    Ms. Wasserman Schultz. Reclaiming my time, Mr. Chairman. 
Reclaiming my time.
    Chairman Cummings. The gentlelady's time has expired, but I 
am going to let her clarify her question so that you can answer 
it. I want to--fair to you. Be fair to her. I want you to 
finish whatever you are doing here.
    Mr. Carroll. Thank you, sir.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Chairman Cummings. Briefly.
    Ms. Wasserman Schultz. Briefly, a couple of weeks ago, at 
Port Everglades in my district, the Coast Guard had intercepted 
$500 million. Half a billion dollars in drugs that they 
intercepted on the water, which a wall would not have helped us 
with.
    Chairman Cummings. You may now.
    Mr. Carroll. Thank you. God bless the Coast Guard. They are 
our front line of interdicting drugs coming in from the sea. 
And God bless the CBP, part of DHS, because they are the ones 
patrolling the border, and they are the ones, as I said, in 
Fiscal Year 2018, 6,500 pounds of cocaine came between the 
ports of entry. And so far, in Fiscal Year 2019, CBP working 
obviously, under DHS, has interdicting 8,100 pounds of cocaine 
coming between the border.
    But as we talked about previously with dangers of fentanyl, 
in the last --Fiscal Year 2017, 2018, and so far into 2019, we 
are up to almost a 1,800, 1,900 pounds of fentanyl alone 
between the ports of entry. Thank you, ma'am.
    Chairman Cummings. Thank you. Thank you very much. Mr. Roy?
    Mr. Roy. Thank you, Mr. Chairman. Mr. Carroll, Ms. McNeil, 
Mr. McDaniel, thanks for being here. Mr. McDaniel, thanks for 
coming up from Texas. Glad to have you here.
    Mr. Carroll, if somebody comes through that door right now, 
does that mean that nobody is going to come through that door?
    Mr. Carroll. Sir, that is the perfect example of the 
problem we face. If all we do is block that door, they will 
come through the next most vulnerable place, which is going to 
be some other way.
    Mr. Roy. So, of course, the Coast Guard is doing its job in 
stopping stuff coming across the water. That does not have a 
thing to do with people coming across the border and coming 
across the Rio Grande River, does it?
    Mr. Carroll. No, no sir. Not one bit.
    Mr. Roy. Thank you. When the President put forth a 
proposal, he put forth a proposal that was comprehensive. Did 
he not?
    Mr. Carroll. Yes sir.
    Mr. Roy. It was not just about wall funding, was it?
    Mr. Carroll. Correct, sir.
    Mr. Roy. Right. Did this Congress, led by democrats, 
completely reject their duty to do what is necessary to fund 
the border, so that the wailing and crying about what money may 
be taken out of one account in order to try to deal with the 
drug crisis, did the President not put forth a comprehensive 
plan that was rejected by this Congress?
    Mr. Carroll. He put together a very comprehensive plan. And 
when I am out on the road, and I am meeting with parents who 
have lost a child, that is what they talk about, is how are 
stopping this poison from killing our kids?
    Mr. Roy. And that plan included beds. It included judges. 
It including dealing with the money that needs to go to border 
patrol and dealt with all of the issues beyond just a wall, did 
it not?
    Mr. Carroll. That is correct, sir.
    Mr. Roy. A question about the 90 percent, the points of 
entry number. I have got data from border patrol that tells me 
we have collected upwards of, in this Fiscal Year alone, 
124,000 pounds of marijuana between the ports of entry. Upwards 
of 63,000 of that through the Rio Grande Valley. I have got 
another number saying 2,500 pounds of cocaine between the ports 
of entry. 1,500 pounds through the Rio Grande Valley. 3,100 
pounds of heroin between the points of entry. 4,000 pounds of 
meth between the ports of entry. 112 pounds of fentanyl between 
the ports of entry. Does that sound like good data about what 
we are actually experiencing between the ports of entry, right 
now, this fiscal year?
    Mr. Carroll. Yes sir and that is consistent with the data 
that I have about what is happening between the ports of entry.
    Mr. Roy. Can you talk, just for a second, because we have 
got limited time. How dangerous is fentanyl?
    Mr. Carroll. Fentanyl, in and of itself, is incredibly 
dangerous. It is a few grains of salt for someone who is a 
naive, meaning inexperienced with an opioid were they to ingest 
it, were they to succumb from it.
    Mr. Roy. Recently an account----
    Mr. Carroll. I'm sorry, sir.
    Mr. Roy. Can you see this picture? Of a certain amount of a 
substance relative to the size of a coin?
    Mr. Carroll. Yes sir. It is a penny with a few grains----
    Mr. Roy. Right, and is that amount of fentanyl, based on 
your experience, enough to kill a human being?
    Mr. Carroll. Based on purity, absolutely.
    Mr. Roy. And was it true that when President Trump was at 
the border with Senators Cruz and Cornyn, they would not even 
put fentanyl in the room? That Secret Service said they did not 
want that as a prop, because they thought it was too dangerous 
to be around the President of the United States?
    Mr. Carroll. I have heard that. I did not participate in 
that conversation, but I heard the same thing.
    Mr. Roy. How much fentanyl, at this kind of amount, at sort 
of a gram or two grams or milligrams, sorry, that would fit in 
112 pounds of fentanyl that have been collected between the 
ports of entry, by our own data. It is a massive amount and 
would kill millions of Americans. Is that correct?
    Mr. Carroll. In a variety of ways, including sprinkling it 
on drugs that people do not even know that is on that. In 
Chico, California, at the beginning of the year, people thought 
they were just snorting powder cocaine, and it had fentanyl. 
And 14 of them --all 14 of them --went down. All 14 of them 
overdosed, not even thinking they were taking opioid, thinking 
they were doing some other drug.
    Mr. Roy. I appreciate that very much. I want to pivot to 
Mr. McDaniel, my fellow Texan. I appreciate you being here. You 
said in your opening statement, and you referenced in your 
written statement, the importance of cartels in driving our 
current crisis. You agree with me that cartels are a huge 
driver of our current human trafficking crisis as well as 
opioid crisis?
    Mr. McDaniel. Yes sir, that is true. There is no crossing 
the lines. They are using the cartels to move both drugs and 
humans.
    Mr. Roy. And you said in your written statement, ``Cartels 
and transnational gains targeted by HIDTA, law enforcement 
initiatives are predators that exist to make money and harm the 
communities of our nations. My prior experience at DEA allowed 
me to see the interworkings of these cartels on a firsthand 
basis, and I do not see the difference between these cartels 
and many of the designated terrorist organizations also seeking 
the destruction of our society.''
    My experience in talking to border patrol and talking to 
people who actually know what is going on because they spend 
time and live on, time on the border, instead of preening in 
front of cameras in Washington. Those people tell me that 
cartels are driving the human trafficking crisis. Do you agree 
with that?
    Mr. McDaniel. Absolutely.
    Mr. Roy. Profiting is the Raynos faction of the Gulf 
Cartel, profiting by moving hundreds of thousands of people 
through the Rio Grande Valley sector?
    Mr. McDaniel. Yes sir. That is my experience.
    Mr. Roy. And upwards of it making $100 to $130 million?
    Mr. McDaniel. Yes sir.
    Mr. Roy. Is the Cartel Del La Reste and Los Zetas, are they 
profiting by moving people across the border?
    Mr. McDaniel. Yes sir, they are.
    Mr. Roy. Is moving people across the border distracting 
from moving narcotics at the same time?
    Mr. McDaniel. No sir, it is all about money for the 
cartels.
    Mr. Roy. And so, finally, and my final question on this is, 
do you believe that the terrorist organizations and do you 
believe that my colleague, Mark Green, and I are correct to 
call on the Secretary of State to define them this foreign 
terrorist organizations?
    Mr. McDaniel. Yes sir. I would support that.
    Chairman Cummings. The gentleman's time has expired.
    Mr. Roy. Thank you, I appreciate it.
    Chairman Cummings. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Interesting to hear 
a colleague talk about which party cares more about an opioid 
crisis. It seems to me it does not know party lines. But I will 
say this, if we are serious about this opioid crisis, the 
actions of this administration do not look it. To have a 24-
year-old campaign aide being the deputy chief of staff for 
something so grave is deeply troubling.
    And now we have a 23-page strategy, 23 pages. When George 
W. Bush was President in 2001, he issued 189-page strategy that 
was comprehensive. And the next year, he supplemented it with 
another 119-page strategy.
    Ms. McNeil, have you looked at this 23-page strategy?
    Ms. McNeil. Yes, we have.
    Mr. Connolly. And would you describe it as comprehensive?
    Ms. McNeil. The way that we describe it, and again, this is 
preliminary.
    Mr. Connolly. Please speak up, Ms. McNeil.
    Ms. McNeil. The way we describe----
    Mr. Connolly. Thank you.
    Ms. McNeil [continuing]. and this is preliminary, we 
focused on four aspects of what was required in the strategy. 
It lacked measurable specific objectives.
    Mr. Connolly. It lacks?
    Ms. McNeil. Lacked.
    Mr. Connolly. Thank you.
    Ms. McNeil. We would have expected annual and measurable 
objectives with specific targets.
    Mr. Connolly. And is that included?
    Ms. McNeil. No, it is not.
    Mr. Connolly. No, it is not.
    Ms. McNeil. We would have expected a performance 
measurement system that also included the types of data and 
their quality.
    Mr. Connolly. And is that included?
    Ms. McNeil. No, it is not.
    Mr. Connolly. It is not.
    Ms. McNeil. We also would have expected base lines which 
the statute that this strategy is based upon refers to as 
assessments. Assessments of illegal drug availability as well 
as a state of drug treatment in the U.S. That is not in the 
strategy.
    Mr. Connolly. That is not included?
    Ms. McNeil. Not included and neither is five-year 
projections on budget and program priorities.
    Mr. Connolly. Really? Well, I asked you, is it a 
comprehensive statement? I think you have just answered the 
question. It is anything but comprehensive. Is that correct?
    Ms. McNeil. It is lacking a number of things that is 
required by the 2006 statute.
    Mr. Connolly. So actually, in terms of reporting 
requirement, this is, by law, and it does not meet those 
requirements?
    Ms. McNeil. Yes.
    Mr. Connolly. Now, I understand that the -- in response to 
the criticism of the inadequacy of this report, which is 
anything but a strategy -- that ONDCP has said they are going 
to issue a 208-page supplement. Is that your understanding, Ms. 
McNeil?
    Ms. McNeil. This is the first we have heard of this.
    Mr. Connolly. Mr. Carroll, can you enlighten us on what 
this 208-page National Drug Control Strategy, after two years 
in office, the Trump Administration is going to provide, and 
when can we see it?
    Mr. Carroll. Thank you.
    Mr. Connolly. And final point, if I may. And will it 
address the inadequacies Ms. McNeil just enumerated?
    Mr. Carroll. Thank you. To address your earliest comment 
about a 24-year-old deputy chief of staff, that was prior to my 
arrival.
    Mr. Connolly. Yes.
    Mr. Carroll. And that person left long before I arrived.
    Mr. Connolly. Thank God.
    Mr. Carroll. In terms of the strategy itself, with 70,000 
Americans dying, maintaining the status quo would be reckless. 
The National Drug Control Strategy that my office released, 
which is 23 or 24 pages long, the -- when you look at other 
national strategies -- the National Security Strategy, the 
military strategy, National Defense Strategy --
    Mr. Connolly. Mr. Carroll, excuse me. I only have --
    Mr. Carroll. And cyber security strategy.
    Mr. Connolly. Mr. Carroll, please do not talk over me. This 
is my time. I have one minute left. I am asking you to address 
what is going to be in the 208 pages, because we just heard 
testimony that you have not even met the requirements of the 
law.
    Mr. Carroll. I am addressing all of your questions, sir.
    Mr. Connolly. No, it does not sound to me --
    Mr. Carroll. Let me finish.
    Mr. Connolly. No, no. No sir. You will answer based on the 
question put to you. We do not have filibusters here in the 
House.
    Mr. Carroll. I am not. I am answering.
    Mr. Connolly. Especially from those --
    Mr. Carroll. Those -- those other strategies average 25 
pages as well.
    Mr. Connolly. Sir, is the 208-page --
    Mr. Carroll. The 208-page supplement --
    Mr. Connolly [continuing]. is it going to address the 
statutory requirements Ms. McNeil said you did not meet in this 
23-page document? Yes or no?
    Mr. Carroll. It is not a yes or no question.
    Mr. Connolly. Oh, you do not know whether you are going to 
answer it?
    Mr. Carroll. I know exactly how I want to answer it.
    Mr. Connolly. Exactly?
    Mr. Carroll. It is not a yes or no question.
    Mr. Connolly. Well, I do not think it is a very difficult 
question to say will the 208-page supplement address what was 
not addressed here by -- required by statute?
    Mr. Carroll. It is not a yes or no question. May I answer 
your question?
    Mr. Connolly. Well, you can try. You have not been doing it 
so far.
    Mr. Carroll. Thank you. Mr. Cummings, I see the gavel.
    Chairman Cummings. I want you to -- go ahead.
    Mr. Carroll. Okay. Thank you, sir.
    Chairman Cummings. I mean, his time has expired, but you 
may answer the question.
    Mr. Carroll. Thank you, sir. The strategy, when it was 
written, if you look at page 4 of the strategy, it reads, ``It 
also provides Federal drug control departments and agencies the 
strategic guidance they need for developing their own drug 
control plans and strategies.'' It goes on and explains, and as 
we did when we released the National Drug Control Strategy, 
that we would work with the agencies, the 15 that are covered 
under this, to develop the strategies and metrics to address 
the statutory requirement that my colleague at the GAO just 
referenced.
    The 200-page data supplement will be forthcoming in a few 
weeks. And data is just that. It is a data supplement. It is 
not intended to be the metrics and quantifiable information 
that will be forthcoming as we work through the interagency 
process that has already begun. Thank you.
    Chairman Cummings. Mr. Jordan? Mr. Gosar?
    Mr. Gosar. Thank you. Ms. McNeil, I mean looking at the 
status that we are today, so you would say that the summary of 
previous administrations' objectives have been successful?
    Ms. McNeil. The scope of our ongoing ----
    Mr. Gosar. 70,000 people dying -- that, as a former 
prescriber of these types of drugs-- that does not look like a 
success to me.
    Ms. McNeil. The trends are continuing to increase.
    Mr. Gosar. So you will agree with me, they have been a 
failure?
    Ms. McNeil. It is, it is -- I cannot say that is has been a 
failure.
    Mr. Gosar. So you would say that 70,000 people dying is a 
success?
    Ms. McNeil. I would say it is a crisis.
    Mr. Gosar. Thank you. So it has been a failure. Now, 
Director Carroll. I quite understand the complexity of this, 
being a former prescription person. Very frugal at that. You 
know, because there are unintended consequences, so I am from 
western Arizona, and I have a population that is fairly old.
    They are dual eligible and so some of the consequences of 
counting pills actually backfire on us. You know, particularly 
with our veterans. Particularly our infirmed. Particularly 
those suffering from some pain applications. And so a lot of 
these folks are actually forced underground because of some of 
the previous measures where they can get some of these illicit 
drugs cheaper, right?
    Mr. Carroll. That is correct.
    Mr. Gosar. Now I want to highlight what some of the 
problems are, because two of my friends from Texas kind of 
highlighted that, particularly with fentanyl, you do not get 
second chances, do you, with fentanyl?
    Mr. Carroll. Not only by the grace of God.
    Mr. Gosar. That is right. And so a lot of these overdoses, 
some of these people are actually taking something that is 
completely different. It could be a sleep drug, and it is 
laced. And they do not ever wake up. Is that true?
    Mr. Carroll. That is true. That is why there needs to be a 
really balanced approach to this.
    Mr. Gosar. Now, I want to get back to the HIDTA situation. 
I want to get your take first.
    Mr. Carroll. Yes sir.
    Mr. Gosar. So we always hear that 90 percent of all the 
drugs are caught at the border crossings?
    Mr. Carroll. Yes sir.
    Mr. Gosar. Most of our border patrol are located where?
    Mr. Carroll. Along the borders.
    Mr. Gosar. At the border crossings.
    Mr. Carroll. Yes sir.
    Mr. Gosar. Okay. And in most cases, like in Arizona, 40 
percent of these illegal drugs are coming through this, I would 
say, aorta of drug trade. And that is the numbers, 40 percent 
of all illegal drugs are coming through the Arizona portal.
    Now you get a number of border patrol agents that are 
covering vast amount of realestate. Is that true?
    Mr. Carroll. I have flown over in CBP helicopters and it is 
unbelievable how much -- how vast it is and what we are asking 
the CBP to do with manpower alone.
    Mr. Gosar. Mr. McDaniel, would you agree with that? I know 
you are in the Texas/Houston area, but you got to be familiar 
with Arizona?
    Mr. McDaniel. Yes sir, I am.
    Mr. Gosar. So vast areas and what ends up happening -- this 
is, this type of trade is very interrelated. Human trafficking 
because when you have -- when you intentionally move human 
trafficking, it takes a lot of operational people to inventory 
them, true?
    Mr. McDaniel. Yes sir.
    Mr. Gosar. So as those limited resources of border patrol 
agents are managing and inventorying human assets, what happens 
with drugs?
    Mr. McDaniel. They are both intertwined. They are flowing 
through with the same people, the same coyotes and so when the 
border patrol is having to detain the persons, it could be 
potentially worse for the drugs to go unnoticed.
    Mr. Gosar. So the number that the public keeps hearing, if 
90 percent of all interdicted drugs are at our border crossings 
is a false premise. Because what it basically does, we do not 
know what we do not know crossing in between those ports, 
right?
    Mr. McDaniel. Those are the unknowns of what we are not 
catching.
    Mr. Gosar. But we get Mr. Roy actually highlighted some of 
those. We are seeing some of these interdictions by luck and by 
haphazard, in many cases, just because of the assets, limited 
assets that are out there.
    So, if this is exponentially bigger than what we are 
comprehending, is that true?
    Mr. McDaniel. Yes sir.
    Mr. Gosar. When you interdict these drugs, are they ounces, 
pounds, can you give us a, you know, a quantitative amount of 
actually how much there is?
    Mr. McDaniel. Along the border crossings, they are large 
quantities because obviously, the cartels are not going to 
waste time moving small amounts. And the only small amounts 
that we are getting off defendants that are being apprehended 
are personal use that they have on their possession.
    Mr. Gosar. Last thing, just a statement. The President's 
emergency order got covered the top ten things in regards to 
what border patrol enumerated as their top ten protocols. Is 
that true?
    Mr. McDaniel. I am not familiar with that, sir.
    Mr. Gosar. Director Carroll, would you agree?
    Mr. Carroll. I know they enumerated specific priorities in 
terms of ranking, but I do not know about how to stop the flow 
of drugs coming across.
    Mr. Gosar. I thank the gentleman. I yield back.
    Chairman Cummings. Thank you very much.
    Ms. Maloney?
    Ms. Maloney. Thank you, Mr. Chairman for calling this 
hearing. It looks like it is a national crisis. More than 
70,000 Americans have died from drug overdoses in 2017 alone. 
And perhaps as many as 140,000 Americans have died from 
overdoes in the first two years of the Trump Administration.
    And on a more personal note, they gave me numbers. We 
researched it on the number in New York, the number of drug 
over deaths in New York is over 3,900 in 2017. The number of 
drug deaths causes by opioids over 3,224.
    And I just have to say, Mr. Carroll that it is absolutely 
inexcusable that the administration did not bother to issue a 
National Drug Control Strategy during the first two years that 
he was in office. And I assumed you just joined the 
administration. Is that correct, or when did you join?
    Mr. Carroll. I joined the office in last -- the Office of 
National Drug Control Policy as the deputy director and acting 
director in February and March of last year.
    Ms. Maloney. Okay, so basically after two years of having 
no strategy, the administration finally released one this 
January, this 24-page report. Now, Director Carroll, in your 
written testimony, you wrote that this new National Drug 
Control Strategy, ``is much different from previous strategies 
and improves on them in fundamental ways.'' Is that correct?
    Mr. Carroll. Yes ma'am.
    Ms. Maloney. Okay. Now, does the strategy identify the 
specific years that it is meant to cover?
    Mr. Carroll. The statute that reauthorized ONDCP covers the 
two years and five year of metrics.
    Ms. Maloney. It covers it but did they identify it as two 
years and five years?
    Mr. Carroll. No ma'am. As I said, the interagency process 
that has already begun, as outlined in the National Drug 
Control Strategy, is underway to develop the -- the National 
Drug Controls Plan and Strategy programmatic and resource 
decisions about how Federal drug control budget dollars are 
allocated.
    Ms. Maloney. But they are developing it now, but the 
strategy that was presented, did that have the specific, one, 
two, or three or five years, because I did not see it in the 
report?
    Mr. Carroll. It was not meant to, no ma'am. That is what we 
are working on right now.
    Ms. Maloney. Okay, good. Okay, now does it identify the 
amount of funding that will be needed to implement the 
activities mentioned in the strategy report? The amount of 
funding -- I could not find it, so. When I read it, so. Was it 
in there?
    Mr. Carroll. Yes ma'am. Well, in terms of the strategy 
itself, it relies on the $34 billion approximately that 
Congress sets aside that we control through the programmatic 
structure of the budget review. The budget review letters to 
the agencies are going out, as always, this spring. And as we 
work on the interagency plan, which they have already started 
meeting, to develop this, that is how we will program it and we 
will be working with GAO.
    Ms. Maloney. But my question was the strategy report did 
not mention the number. I guess you are working on it now, 
though?
    Mr. Carroll. It was never meant to. And we are working on 
it now, yes ma'am.
    Ms. Maloney. And does it identify quantifiable metrics that 
can be used to access whether the program agencies are making 
progress toward achieving the strategie's goals?
    Mr. Carroll. The document was the strategy and the vision. 
The why and what we need to do. What we are working on now is 
the how and that will absolutely address what you just raised, 
ma'am. And I look forward to working with you all, so that we 
can produce these quantifiable information.
    Ms. Maloney. Well, we will have to have you come back, 
because ----
    Mr. Carroll. Yes ma'am.
    Ms. Maloney [continuing]. all three of my questions is 
basically a no. It was not in the strategy report.
    Mr. Carroll. It was not meant to be, ma'am.
    Ms. Maloney. Okay. In your written statement, that the 
National Drug Control Strategy released in January is ``fully 
formed.'' Is that right?
    Mr. Carroll. The vision and strategy is absolutely fully 
formed. We are saving American lives. That is the absolute No. 
1 vision and then we will be implementing it through the 
interagency process following the two and five-year goal that 
you just mentioned.
    Ms. Maloney. But then you state that you are assuming a 
data supplement, which, ``will include a list of quantifiable 
two and five-year benchmarks to measure our progress over the 
life of the strategy.'' And I guess my question basically is if 
the strategy is so fully formed, why do you need a data 
supplement that appears intended to contain information that, 
by law, is required to be in the strategy?
    Mr. Carroll. I will have to confirm and get back with your 
staff. But my understanding is that the data supplement is 
always, or has been historically, for many years, published 
afterwards.
    Chairman Cummings. Mr. Meadows?
    Mr. Jordan. Mr. Chairman if I could real quick before 
Congressman Meadows. We get a quick, unanimous consent request 
Congressman Kinzinger, one of our colleagues was recently 
deployed with his international guard unit to the border and 
his statement on just how terrible the situation is down there. 
I would like to enter it into the record.
    Chairman Cummings. Without objection, so ordered.
    Mr. Jordan. Thank you.
    Chairman Cummings. Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman. Director Carroll, 
obviously there is a disconnect between your strategy and what 
GAO, Ms. McNeil, is suggesting is in it. And I think part of 
the conundrum that we are in is that Members of Congress, in a 
bipartisan way, rely very heavily on GAO. And so as politely as 
I can mention, you need to make Ms. McNeil happy, all right. 
Are you willing to do that?
    Mr. Carroll. We have been working with them for the past 
year. And I, quite frankly, my goal is to make everyone happy.
    Mr. Meadows. Well that -- that is impossible in Washington, 
DC.
    Mr. Carroll. I have a goal.
    Mr. Meadows. So all I am saying is, Ms. McNeil, the GOA -- 
I am a huge fan.
    Mr. Carroll. I am, too.
    Mr. Meadows. And so what we need to do is we need to have a 
timeline. And what you are hearing from some at this particular 
point is that your strategy along with the GAO analysis is at 
odds. Now, in your mind it is not. I hear that. You are going 
to do the supplement and the matrix. Anything that is not 
measured, is not achievable, okay. So that is why I think what 
would be a reasonable timeframe to address some of the concerns 
that Ms. McNeil has raised, specifically for me, I am looking 
at matrix and how do we measure success, all right. What would 
be a reasonable timeframe to address the top three concerns 
that Ms. McNeil mentioned in her testimony?
    Mr. Carroll. The data supplement that we just talked about 
is being finalized now. And that should be ready to go in the 
next few weeks. So I think today is March 11th or 12th. So that 
should be ready by the end of this month. The interagency 
process is continuing to work. I will continue to coordinate 
with GAO, but I would hope that would be ready in 60 days.
    Mr. Meadows. All right, so are you willing to commit to 
have both of those things or at least a status update back to 
Chairman Cummings in 60 days to this committee?
    Mr. Carroll. Absolutely.
    Mr. Meadows. All right. Director Carroll, let me also say, 
when I heard Ms. McNeil's report, it was like nails on the 
chalkboard. It did not reflect well and yet, as your testimony, 
as you continue to share what you are doing, it gives me 
greater comfort. It is obvious that you take this serious and 
that you know exactly how the crisis that we are in.
    Here is what I would ask of you. If you can help Chairman 
Cummings and Raking Member Jordan understand the priority that 
you are placing on this. I believe that, from what I 
understand, you take this personal. Is that correct?
    Mr. Carroll. Congressman Meadows, if I may. Less than two 
years ago, 20 months ago approximately, I was in a detox center 
with a family member who had an addiction. And they came 
forward to us and they were over the age of 21 and we did not 
know that they were even taking a prescription. Sadly, that is 
what happens with so many parents.
    Thankfully, they came forward to us, and we took them, 
first to a detox center at a hospital. Then got them into 
treatment and now with a lot of prayer and a lot of great 
professional help, we are 20 months into what I think is long 
term recovery. It seems kind of short term.
    Sir, I am personally committed. Every morning I get up to 
be relentless on this issue. I do not want there to be -- I 
want every family to have the success story that I really hope 
and pray that my family is having. I am all in. When I first 
started out in my career as a criminal prosecutor, and I mainly 
did drug cases for a county in Virginia. And the prosecutor 
that I worked for said that when, ``You'll know when it's time 
to leave.'' Just like your jobs, my current job, that is a 
demanding job. And he said, ``You'll know when it's time to 
leave when you no longer have the fire in your belly.''
    Sir, I have got fire in my belly. I have got it in my 
heart, and I pray every day just like Chairman Cummings was 
talking about the power of prayer that we are making a 
difference. This really is a bipartisan issue. I am all in.
    Mr. Meadows. I thank you, Director Carroll. And I will 
close with this. This particular issue has brought people from 
both sides of the aisle together. In the privacy, you know, of 
really back rooms trying to make sure that we reauthorize this. 
Chairman Cummings advocated in an unbelievable way to make sure 
that this got reauthorized. We came together, republicans and 
democrats to make sure that we have done it.
    We want to give you the tools. We just ask that you make 
the commitment and if you are -- it sounds like you are willing 
to do that, and I yield back.
    Chairman Cummings. Let me just clarify something. First of 
all, I want to thank the gentleman for what he said. He 
basically have adopted something that I have been advocating 
for years. And that is, there are some witnesses we bring back. 
Chairman Gowdy, Chairman Chaffetz, even Issa. There are some 
witnesses we bring back. And so that we can keep up with them. 
And keep up with their progress. Because what we found and that 
those three chairmen agreed with me, was that a lot of people 
will come and testify and then time goes by. A new Congress 
comes in. New people come in. Problem goes on.
    So I want, I want to thank you, first of all, for what you 
just said. But second, we are going to hold you to that 60 
days.
    Mr. Carroll. Absolutely.
    Chairman Cummings. And we will not make it one day less but 
60 days, all right. Got that?
    Mr. Carroll. Yes sir. The data supplement should be -- we 
will do a status report.
    Chairman Cummings. There is another thing, though. You got 
to get this piece.
    Mr. Carroll. Yes sir.
    Chairman Cummings. Or else we will be going in circles 
again. I want to make sure that we are talking about the same 
thing. As I listen to Ms. McNeil, she said there is a law with 
certain things that supposed to be in this report. Is that 
right, Ms. McNeil? I am asking you to clarify this.
    Ms. McNeil. Yes sir.
    Chairman Cummings. I do not want you coming back and saying 
I did not tell you.
    Mr. Carroll. I agree with Ms. McNeil.
    Chairman Cummings. So this is not necessarily a dispute 
between you and GAO. This is you and the law. Am I right? Am I 
missing something?
    Ms. McNeil. No, you are correct.
    Chairman Cummings. Oh, okay. The law. This is what all of 
us voted on. So you got me? So you understand what you are 
bringing back?
    Mr. Carroll. Yes sir.
    Chairman Cummings. And Ms. McNeil, so that we will all be 
clear, would you give us -- and we probably have it here, but 
would you summarize what it is that we should expect in 60 
days? Is that all right, Mr. -- all right, got that?
    Mr. Carroll. Yes sir.
    Chairman Cummings. Ms. Kelly?
    Ms. Kelly. Thank you, Mr. Chair. Congress created a highly 
successful HIDTA program over two decades ago to assist 
Federal, state, local, and tribal law enforcement agencies 
operating critical drug trafficking areas across the country.
    Mr. McDaniel, you spent 24 years as an agent with the DEA 
and now serve as the director of Houston HIDTA as you have 
stated. In your written testimony, you state, ``The HIDTA 
program is an essential component of the National Drug Control 
Strategy.'' Can you explain why HIDTA program is essential to 
the National Drug Control Strategy?
    Mr. McDaniel. Thank you for the question. We are the eyes 
and ears for ONDCP and at a moment's notice, the director can 
have access to all those state and local resources and, more 
importantly, our treatment and prevention partners. And he has 
instant access and the particular instance that he was talking 
about in California where everybody was having overdoses, he 
was able to reach out to the HIDTA out there to say, ``Get me 
the information quick.''
    Ms. Kelly. Thank you. We received testimony that, as early 
as 2017, career staff at ONDCP were working on a national -- a 
draft National Drug Control Strategy. Mr. McDaniel, did HIDTA 
provide input to the development of that draft strategy?
    Mr. McDaniel. Yes, we did.
    Ms. Kelly. Did HIDTA assist in writing any portions of the 
draft strategy?
    Mr. McDaniel. We actually did revisions, and they accepted 
those revisions.
    Ms. Kelly. After two years of delay, President Trump 
finally released a National Drug Control Strategy and, as we 
have said, it is only 23 pages long. Was the input you provided 
to ONDCP on the draft strategy included in the final drug 
control strategy issued by the President?
    Mr. McDaniel. In an overall framework view, yes ma'am.
    Ms. Kelly. What do you mean by overall?
    Mr. McDaniel. Well, the -- all the input that we gave for 
the 2017 version, it was in there, but it was in a larger 
scale. It was not in the detail of the document that we 
assisted with in 2017.
    Ms. Kelly. Did ONDCP ask you to review and provide input 
into the development of the final 23-draft pages?
    Mr. McDaniel. Not on -- not in the same manner we did in 
2017, but in a collaborative effort of using what was going on 
in the HIDTA program throughout the country. As helping them to 
come up with final product.
    Ms. Kelly. So do you know what happened to the strategy for 
which you did provide input?
    Mr. McDaniel. I do not.
    Ms. Kelly. What are the most important things that were not 
included in the strategy released in January, in your view?
    Mr. McDaniel. I am not sure I would be a good person to say 
what was not included. I -- only because what ended up coming 
in this 23-page summary was just a large framework without any 
specific details.
    Ms. Kelly. So do you believe that the strategy released in 
January provides adequate detail or does it sound like you do 
on the goals that HIDTA should be working on to achieve or on 
the resources? HIDTA needs to achieve those goals? Do you feel 
there needs to be more detail?
    Mr. McDaniel. In my opinion, HIDTA is going to do exactly 
what we have always done so well, and that only provides the 
overview framework, but it is not going to change what we are 
doing. We are actually changing the way we do business. Every 
month, there is something new and innovative out there, but I 
think that I have had conversations with Director Carroll that 
we will be having conversations in the future and having a 
little more input in future drug control strategies.
    Ms. Kelly. Thank you. Director Carroll, can you explain why 
the things Mr. McDaniel has just told us, or what he is saying 
is more general. Even though they are going to keep doing what 
they are doing regarding the development of National Drug 
Control Strategy occurred? Like why did they not have more 
input?
    Mr. Carroll. They did have input into the -- can you hear 
me?
    Ms. Kelly. Yes.
    Mr. Carroll. Sorry. They did have input into the National 
Drug Control Strategy. As Mr. McDaniel, as Director McDaniel 
stated, they provided input originally when the first draft was 
written. That draft was used to help produce the one that was 
just published back in January. As well as the opioid strategy 
as well as the, well Chris Christie Commission. So all of those 
documents -- everything that had been collected, all of the 
input was boiled down and distilled into the report that was 
issued in January.
    Ms. Kelly. So you are saying you used that as a resource or 
backdrop?
    Mr. Carroll. Yes ma'am. Ma'am, may I mention one thing 
about HIDTAs, just if you do not mind? I just want to mention 
also, because I do believe that it is a very bipartisan issue. 
The HIDTAs, I just wanted to mention, in addition to doing the 
law enforcement work, as you know, we have several in your 
district of the drug-free communities. The boards of the 
HIDTAs, the law enforcement side, also sit with the prevention 
on the boards of our drug-free communities. So they can provide 
that overlap in one group of both law enforcement and 
prevention together in one community. Sorry.
    Chairman Cummings. Thank -- go ahead. I gave him a little 
leeway over here.
    Ms. Kelly. Director Carroll, will you provide this 
committee a list of all stakeholders that were consulted in the 
development of the 23-page strategy released in January?
    Mr. Carroll. Yes ma'am.
    Ms. Kelly. Provide that to the committee.
    Mr. Carroll. Yes ma'am.
    Ms. Kelly. Thank you.
    Chairman Cummings. Thank you very much.
    Mr. Comer?
    Mr. Comer. Thank you, Mr. Chairman. Last month I met with a 
group of folks here in office from the South Central Kentucky 
Drug Task Force. They spoke with me in depth about the drug 
epidemic in Kentucky, which like many states, is in -- you 
know, it is a serious, serious issue.
    The Kentucky State ONCDP director was present at this 
meeting. And he agreed with the notion that the drugs that are 
destroying our communities are coming from Mexico. That is why 
we must secure the border. And if we cannot get agreement from 
the other party on securing the border, then I support the 
President's measures to declare a national emergency. Because 
we have a terrible drug epidemic it seems like in the rural 
areas, which in districts like mine, it is pretty much the 
entire district. The drug problem gets worse every day. It is 
not getting any better.
    According to the CDC, Kentucky, along with over a dozen 
other states were labeled as having a statistically significant 
drug overdose death rate increase from 2016 to 2017. Kentucky 
had an 11 percent increase from 2016 to 2017. Drug overdoses 
killed 1,566 people from my state in 2017. One-hundred-seventy 
deaths in my district alone. And between 2013 and 2017, 
fentanyl seizures by the Kentucky State Police have risen by 
more than 14,000 percent. And that is not a typo.
    At the same time, meth seizures have increased by 299 
percent. The fact of the matter is that deadly drugs continue 
to pour across our border and into our communities. Including 
the vast majority of cocaine and heroin consumed in America. 
What occurs at the border touches even the smallest rural 
communities that you will never hear about. That is why I care 
so strongly about what happens at our borders with regards to 
illicit drugs coming across and that is why I remain committed 
to securing our borders from dangerous crime and drugs that are 
killing our people.
    Director Carroll, how does the ONDCP utilize law 
enforcement partnerships across Federal, state, and local 
entities to address illicit drug trafficking?
    Mr. Carroll. Thank you, Congressman. First of all, I want 
to thank all the efforts that are taking place in Kentucky. I 
am going there next week. Actually, and I will be meeting with 
some of the representatives at DHL, where so many drugs are 
coming through.
    Mr. Comer. DHL in northern Kentucky. UPS in Louisville.
    Mr. Carroll. So your constituents down there working at 
those facilities are really trying hard. And in terms of 
understanding of the ports of entry and maybe not to answer 
your question but between the ports of entry. In the last two 
years, the amount of fentanyl that DHS has seized between the 
ports of entry has increased over 468 percent between the ports 
of entry, just talking about fentanyl.
    The partnership that we are able to utilize with our 
friends at HIDTA, working at the Federal, state, local, and 
tribal level are able to come together, provide us, as Director 
McDaniel said, real time, instant data of exactly what is 
happening.
    I am on the phone frequently, usually on the cell phone, a 
lot of times in the evening, with our HIDTA directors across 
the country finding out firsthand. I do not want there to be a 
filter between, you know, the law enforcement folks, the 
treatment folks, anyone who are able to reach out and touch.
    I know, Community Anti-Drug Coalition is here in the 
audience, CADCA. And I am constantly on the phone with them in 
the evening. And so, getting real time data regardless of the 
issues that we are concerned about is key to working with our 
law enforcement partners, including U.S. Coast Guard.
    Mr. Comer. Quickly, how does the ONDCP leverage its 
relationships with international partnerships with other 
countries, such as Mexico to disrupt the flow of illicit drugs?
    Mr. Carroll. The -- we work very closely with our -- and I 
work very closely with our foreign partners. In Colombia we 
were talking about cocaine. They have a new President, 
President Duque as you know. I have already met with him four 
times since he took office last fall, including two weeks ago 
when he was meeting with President Trump, and I participated. 
In China, as we talked with Chairman Cummings, I am heading to 
China again in April. And frequent conversations with our U.S. 
Ambassador to China as well as the Chinese Ambassador to the 
U.S. Pushing them on class scheduling of fentanyl. Mexico is 
certainly a challenge. And we are working hard through an 
ONDCP-led effort of the North American Drug Dialogue.
    Chairman Cummings. Congressman's time has expired.
    Mr. DeSaulnier?
    Mr. DeSaulnier. Thank you, Mr. Chairman. I want to thank 
the witnesses. I want to also thank the ranking member for his 
efforts on this issue and it is a little hard to sit here, 
having spent hours in state and local Government in California 
on this issue. There is plenty of evidence-based research about 
the investments we need to make in this country to stop this 
crisis. And that is what this hearing is about, Mr. Carroll. It 
is us getting performance standards, from my perspective, that 
are required by statute from you. So we can measure it.
    With all due respect, I have heard people from the previous 
administration sit here. And if members remember, our issues of 
the Chemical Safety Board which impacts my district with four 
refineries. And previous administration and others in that 
administration who said that they had the fire in belly. But if 
we cannot measure your success, then you should not be in the 
position. And so far, this administration, by almost any 
standard, has not managed well.
    So in terms of the legislation, the statute that Mr. 
Cummings referred to, H.R. 5925, the Coordinated Response to 
Interagency Strategy and Information Sharing Act, The Crisis 
Act, along with the support for Patients and Communications 
Act, Communities Act, which we passed by bipartisan effort to 
address this issue. And I want to recognize somebody I have 
worked closely with on the other side of the aisle, Congressman 
Buddy Carter and I have worked on this extensively, 
particularly opioids. As the only pharmacist in Congress, I 
respect him immensely.
    But focusing on the evidence-based research, we were able 
-- I was able -- to along with Mr. Carter and others, get a 
number of amendments put into those statutes that Ms. McNeil, I 
believe, you are referring to those amendments. So those 
amendments require evidence-based research, performance 
standards and metrics, and I will add that this was supported 
by key stakeholders, politically and policy wise from both 
sides of the aisle.
    Ms. McNeil, under that statute, I understand the GAO has 
recently begun its next audit of ONDCP. Is that correct?
    Ms. McNeil. That is, yes.
    Mr. DeSaulnier. When did the audit being, and did you have 
an intake meeting?
    Ms. McNeil. We started that audit in the late fall, and we 
had one entrance conference meeting, which is our initial 
kickoff meeting with the ONDCP in, I think, the early December 
timeframe.
    Mr. DeSaulnier. And have you asked for documents?
    Ms. McNeil. Yes, we have.
    Mr. DeSaulnier. Have you received any?
    Ms. McNeil. We have received some documents. A number of 
them are not substantive and so they do not fully answer the 
questions that we have about one -- how they certified budgets 
in 2017 and 2018 without a strategy. They also do not provide 
substantive information about how they developed the strategy 
that they issued in January.
    Mr. DeSaulnier. Director Carroll, are you aware of this 
request?
    Mr. Carroll. This is the first that I am hearing that there 
were still some documents outstanding. We have spoken with 
them. I have just been conferring with staff almost every week 
since I have been in -- since I have been the acting director 
since February of last year, and whatever documents were 
outstanding, I commit to finding out what they are and moving 
it as expeditiously as possible.
    Mr. DeSaulnier. Ms. McNeil, can you sort of describe the 
difference from your perspective of what you have asked for, 
the responsiveness. My notes show that you have only got about 
10 pages. So could you give us a little measurement on what you 
have asked for, what you have received, and what kind of 
timeline you would expect to get all of the information?
    Ms. McNeil. Yes, my staff prepared a document for me so I 
can go through.
    Mr. DeSaulnier. Briefly, please.
    Ms. McNeil. What we asked for. If I can find it. I will go 
off memory. The information that we specifically need, what 
type of collaboration, who are the stakeholders that they 
coordinated with to develop the strategy, that is something 
that we thing should be readily available and should have been 
easily provided to us. I think we requested that back in 
December, and it is now March. The other types of things that 
we would have wanted to know, updates on our past 
recommendations, specifically from the 2018 opioids, Synthetic 
Opioid Report we issued. We did get information this week on 
recommendations updates from ONDCP. And so, our staff is at the 
office right now trying to understand is it enough to move 
that? Have they addressed the deficiencies that we flagged?
    I talked about how they certified budgets. That is 
critical. We want to understand what guidance did they provide 
to agencies when they did not have a strategy. Those are the 
types of things.
    Mr. DeSaulnier. Okay, I only have 30 seconds. Mr. Carroll, 
it is enormously important, consistent with what the chair 
said, and I believe the ranking member, without putting words 
in his mouth, we all want this information. You have talked 
about meeting with parents. I have met with parents, siblings, 
200, almost 200 people every day.
    Mr. Carroll. Yes sir.
    Mr. DeSaulnier. There is a sense of urgency here. If you 
have some fire burning in you, you had better have it at full 
flame, because every day people are dying. And having just an 
esoteric conversation about how much we care is not important 
to me. It is the measurements, and I think both parties agree 
with that. So if we do not get this information in the 60 days, 
expect us to be very critical of your competence in doing your 
job. Thank you, Mr. Chairman.
    Chairman Cummings. Thank you very much.
    Mr. Hice?
    Mr. Hice. Thank you, Mr. Chairman. I have a poster I would 
like to put up, to me is stunning to realize this, the potency 
of fentanyl and how much, how little it takes to be lethal.
    [Chart.]
    Mr. Hice. And you see this amount compared to a penny. It 
is just amazing when you start looking at this and realize the 
cause of death. How little fentanyl is required to cause a 
death.
    I think many of us saw earlier, Secretary Nielsen, in her 
testimony before Homeland Security, she made several stunning 
comments all along the way, but among those were in the first 
four months of the fiscal year, we saw approximately 60,000 
migrants each month crossing illegally into our country. Last 
month alone, more than 76,000, which is a sharp increase. So we 
are seeing -- it is not just enormous numbers of people, but we 
have got to ask the question, who are these people who are 
coming across the border illegally, and I think it is a fair 
statement to acknowledge the obvious that none of these can be 
referred to as law abiding if they are coming into our country 
illegally to begin with. And among those, of course, we have 
dealt with so much of the crime issues and today the drug, 
specifically, she mentioned in her testimony that fentanyl 
smuggling between the ports of entry, on the southern border, 
is more than doubled over the last fiscal year. You mentioned a 
while ago that it was 468 percent now, Mr. Carroll?
    Mr. Carroll. In fentanyl, yes.
    Mr. Hice. Yes, in fentanyl. And just unbelievable increase. 
We have all known we have had trouble at the ports of entry but 
now, obviously, between the ports of entry are becoming a 
serious issue as well.
    According the Federal law enforcement, the threat of 
illicit fentanyl in the United States is primarily sourced from 
China and Mexico. I want to followup a little bit on Mr. Roy 
earlier. I am familiar with fentanyl coming from China through 
the U.S. Postal Service, that type of thing. But walk me 
through the fentanyl threat that is coming along the southern 
border. Where is the source of that, do we know?
    Mr. Carroll. Yes sir, we do, sadly. And it is coming -- it 
is all originating, or almost all, upper 90 percent from China. 
It is either coming from China to the U.S. either directly or 
maybe through a trans-shipment. Or, but the other predominant 
way is going into Mexico, and it goes to Mexico either as 
finished product or precursor chemicals. There is also, in 
Mexico, they have the exact number is classified. So I cannot 
give it in this setting, but I will mention as recently as 
December 2018, the Mexican attorney general's office announced 
a raid on a fentanyl production lab in Mexico. There are 
numerous production labs in Mexico that have been disrupted or 
dismantled by cooperative, global law enforcement efforts. And 
it is coming across, as I said, either, the fentanyl.
    As you can see from the photograph, it is small.
    Mr. Hice. It is just such a small amount. I want to express 
gratitude to HIDTA and the Atlanta, Carolina's HIDTA and 
Ocmulgee Drug Task Force in Milledgeville, Georgia where I am 
from. They are doing a great job. It is my understanding that 
every Mexican cartel has a presence in Georgia. And regardless 
of how it comes across the southern border, so many of these 
drugs, they make their way up the various arteries and so much 
of it ends up in the Atlanta area and goes however it moves 
from there. Generally speaking, how do the Mexican drug 
trafficking organizations operate, Mr. McDaniel? Can you 
explain that? Both on the border and interior?
    Mr. McDaniel. Yes sir, they insulate themselves very well 
to prevent one person, for instance, in the Carolinas of 
cooperating and taking down the whole infrastructure. But 
unfortunately, they send their operatives into the U.S., and if 
we arrest one, then they send a replacement. But they send 
replacements that either of familial descent where they know 
where their family members are or if they are going to be 
trusted. But on the worst part of it is, is that the operatives 
that are running the cells in that area, they have family 
members in Mexico, and they know that they could be losing 
family members if they do not stay loyal to the cartel.
    Mr. Hice. How would HIDTA in Houston differ from HIDTA in 
Atlanta? I know they have got to work uniquely but separately 
as well.
    Mr. McDaniel. We work extremely well together. But yes sir, 
you are right, we have a lot more drugs that are being stashed 
as soon as they cross the U.S. border patrol inland at 
checkpoints. And then they are being loaded en masse and going 
into areas like in your district.
    Mr. Hice. Thank you.
    Chairman Cummings. The gentleman's time has expired. Ms. 
Speier?
    Ms. Speier. Mr. Chairman, thank you. Thank you for holding 
this hearing. I would like to compliment you and Congressman 
Meadows, in abstensia, for recognizing what we should be 
talking about here. It is absolutely shameful that we would sit 
here and conflate a continuing debate about a border wall with 
the fact that 70,000 Americans are dying every single year in 
this country. And we want to turn this into some political food 
fight. Shame on you.
    Now, Director Carroll, let me ask you this question. What 
percentage of the opioid overdose deaths in this country are 
due to prescription opioid use?
    Mr. Carroll. I want to make sure I try to give you as 
accurate a number as possible. Just about 70,000 deaths 
overall.
    Ms. Speier. I know that.
    Mr. Carroll. Yes ma'am.
    Ms. Speier. I can tell you what the percentage is.
    Mr. Carroll. Okay.
    Ms. Speier. You should know this off the top of your head. 
It is 40 percent. So 40 percent of the deaths are attributed to 
persons getting prescription drugs in the United States. It is 
not the majority, but it is 40 percent. So you referenced 
between ports of entry capturing drugs. How are we capturing 
those drugs between the ports of entry?
    Mr. Carroll. Through a variety of methods but primarily DHS 
agents, whether they are border patrol or CBP. I do want to 
make sure that, that 40 percent ----
    Ms. Speier. I was just trying to make a point there. We can 
go on.
    Mr. Carroll. Sure.
    Ms. Speier. My understanding is that the blimps that we 
have been using, the aerostats have been responsible for tons, 
some 60 tons of illegal drugs being captured. Not by a wall but 
by aerostat. I just want to make that point. Now let me go on 
to ----
    Mr. Carroll. But of course that does not indicate flow. 
That just indicates law enforcement activity.
    Ms. Speier. Okay, but we still -- I want to focus on the 
70,000 deaths a year.+
    Mr. Carroll. Me too.
    Ms. Speier. And how we are going to address this.
    Mr. Carroll. Me too.
    Ms. Speier. GAO has requested documents. You have been slow 
in making those documents available to the GAO. I want a 
commitment from you today that you will make those documents 
available within the next two weeks.
    Mr. Carroll. The --
    Ms. Speier. Just answer yes or no. You have a $19 million 
budget for operations.
    Mr. Carroll. I have no idea what those documents are. It is 
the first time I am hearing it. I will work with her today to 
find out what they are and get them to her as soon as possible. 
But until I know what they are --
    Ms. Speier. Ms. McNeil, if you do not have them in two 
weeks, will you let the committee know, please?
    Ms. McNeil. Yes.
    Mr. Carroll. And we can work together. I will let you know 
as well.
    Ms. Speier. All right. The President convened a commission 
to look at this issue. They completed their work on November 
1st, 2017, over a year ago. They made 56 recommendations for 
Federal funding and programs. How many of those have been 
adopted?
    Mr. Carroll. All of the 56 are not under the control of the 
Federal Government or the legislature here.
    Ms. Speier. How many are?
    Mr. Carroll. The work on tracking those as well -- I can 
give you an exact number. Obviously with 56, some are in 
various stages. But as I said, many of them are not under 
control of Federal Government or Congress.
    Ms. Speier. If you would make the committee -- put on paper 
a document that goes over the 56 recommendations. Indicate 
which ones are within the purview of the Federal Government and 
what action you have taken on them.
    Mr. Carroll. We will provide that, yes, ma'am.
    Ms. Speier. And then finally, President Obama's drug policy 
budgets had each agency give an agency specific targets and 
assess them for performance. We have had an ongoing 
conversation here today about that. But for instance, in the 
Defense Department, it was assessing the amount of narcotics 
captured. In Health and Human Service, it was assessing the 
number of health centers providing treatments. And Justice was 
assessed drug-related investigations. I think that is what Ms. 
McNeil was trying to get to as well. We need measurements. 
Congressman Meadows was making that same point.
    If you already have this document from the end of the Obama 
Administration, would it not be pretty simple to take what was 
developed there and augment it to some extent? We do not have 
to reinvent the wheel here. You have 40 seconds to answer that 
question.
    Mr. Carroll. Yes ma'am. It would have been simple, but it 
would have been wrong. Because what we know is that it failed 
under the Obama Administration when the last one came out. That 
every single time when all you did was look at individual 
numbers instead of effectiveness, instead of working with the 
agencies, resulted in an increased number of deaths. What we 
are now seeing in the most recent from CDC tracking over the 
last 18 months is the death rate of what we -- because of the 
efforts that we have been doing is actually beginning, not only 
to taper but to plateau. And once CDC finalizes this 
information, you will see that the efforts that have been 
undertaken in the last 24 months or so are actually working. 
But the Chris Christie recommendations, they are not metrics or 
goals, either. They are broad things, but we took them to make 
sure that we came up with something working with Congress that 
will achieve the objectives that you just said.
    Ms. Speier. Thank you. I yield back.
    Chairman Cummings. Let me -- before I go to Ms. McNeil, I 
want to make sure we are clear. Because I do not want you to be 
making commitments, in fairness to you, that are not clear. You 
were going to come back -- you are going to come back, God 
willing, in 60 days to do what Ms. McNeil has asked. But is 
this something different now? That you want? In other words, 
you said you want him to come back in two weeks with certain 
information.
    Ms. Speier. Actually, Ms. McNeil indicated that she is 
still lacking documents that she needs for assessments. So----
    Chairman Cummings. You are talking about the lead 
documents?
    Ms. Speier. Right.
    Chairman Cummings. Something different, right? Okay, go 
ahead.
    Ms. McNeil. One important thing that GAO has been seeking 
as well, in addition to documents, is additional interviews. We 
have only been able to meet with ONDCP once during this 
engagement. We really need to be able to interact with them, 
and that would be helpful as well.
    Chairman Cummings. Will you commit to doing that? Seeing 
that your people are available?
    Mr. Carroll. I am really sorry that Congress, everything 
was shut down for 35 days over part of this issue, but whatever 
the outstanding -- I will work with her. If there are 
interviews that she wants, we will take care of it. And in 
terms of what the Congresswoman was mentioning. I think she was 
asking, and correct me if I am wrong. You were talking about 
the Chris Christie? Was that part of -- Okay, just wanted to 
make sure.
    But on the other one, we will find out immediately what is 
going on and we will have a stat -- if we have not been able to 
produce all of the metrics that GAO is asking for in the next 
60 days, we will come up to you far in advance of the 60 days 
to tell you an exact status report of where we are. I commit to 
you.
    Chairman Cummings. Well I can tell you, we are going to 
have you here -- May, the week of May 6.
    Mr. Carroll. Yes sir.
    Chairman Cummings. All right. Tell your staff because we 
will be here. And we would like to invite you.
    Mr. Carroll. Thank you. It is always a pleasure.
    Chairman Cummings. And the only reason I am saying that is 
I just wanted to make sure that we are not getting you to 
commit to something, and there is confusion. That is all.
    Mr. Carroll. I hope.
    Chairman Cummings. That is in fairness to you.
    Mr. Carroll. Yes sir, and I appreciate that. I think we are 
clear, but I will make sure I get back to your staff if there 
is any discrepancy, but I understand what we are agreeing on.
    Chairman Cummings. And Ms. McNeil, if you have any trouble 
getting your interviews, would you let us know?
    Ms. McNeil. Yes sir.
    Chairman Cummings. Thank you.
    Ms. McNeil. I surely will, and I would like to extend, if I 
may?
    Chairman Cummings. You may.
    Ms. McNeil. We have expertise with strategic planning as 
well as collaboration good practices. We would be more than 
willing to come over and walk you through any of those leading 
practices. You implement the strategy and develop additional 
strategies.
    Mr. Carroll. What are you doing tomorrow?
    [Laughter.]
    Mr. Carroll. Absolutely. We would love to work with GAO.
    Ms. McNeil. Great.
    Chairman Cummings. Okay. All right, Mr. Grothman?
    Mr. Grothman. First of all, I would like to yield 20 second 
to Congressman Roy.
    Mr. Roy. Thank you, sir. Just a quick question to Mr. 
McDaniel or Mr. Carroll, are you aware that with respect to the 
gentlelady's questions about air assets and how people are 
interdicted between the ports of entry, that the state of Texas 
has to put in its own budget $800 million per biennium which 
they are debating right now and have been doing annually to 
provide air cover for the border patrol, because the U.S. 
Government refuses to give the air cover that is necessary for 
border patrol. Yes or no and then I yield back.
    Mr. McDaniel. I am aware and Director McCraw is very 
supportive of our border interdiction efforts with Texas EPS.
    Mr. Carroll. CBP uses a variety -- DHS uses a variety of 
methods, aerial and land based, including the rack patrol that 
looks for tunnels.
    Mr. Grothman. Okay, thank you. First of all, I would kind 
of apologize a little. I know, recently Wisconsin was in the 
news for pulling their National Guard off the Arizona Border, 
and I know it is important for every state to do their share, 
and I apologize in so far as the Wisconsin Governor did not 
realize the importance of this type of patrol done without the 
wall. You know, just identifying people, catching drugs coming 
across the border.
    Okay, now some questions, really for all three of you. This 
is a very frustrating thing. I mean I cannot believe how far 
this has gotten, given that everybody seems to know these drugs 
are potentially fatal. Nevertheless, the number of people who 
die keeps going up and up. Does anybody know any examples of 
states or metropolitan areas that are genuine successes in 
which we have less steps today, now, than say four years ago? I 
mean, someone that is generally working?
    Mr. Carroll. If I can start. One of the areas that has 
really been hit the hardest and really started out being really 
tough in terms of the suffering is West Virginia. And one of 
the best practices that I saw in West Virginia is a quick 
response team in Huntington area. Where if someone overdoses 
within 24 hours, they are there with public health officials, 
with law enforcement, finding the people who the most 
vulnerable within 24 hours to get into treatment.
    Mr. Grothman. Has there been a drop in the number of 
fatalities in that metropolitan area?
    Mr. Carroll. Yes sir.
    Mr. Grothman. Okay. Next question. Can any of you give any 
examples of bad treatments? We keep throwing this money at 
treatments. I hear of good treatment and bad treatment. Does 
anyone want to comment on the type of things we do not want to 
spend money on anymore?
    Mr. Carroll. What we want to spend money on is science-
based treatment that we know works. Such as medication-assisted 
treatment. MAT works for certain individuals. We know that 
faith-based treatment centers work for that segment of the 
population and they are very effective. It really depends on 
the population. In some of our rural areas, some of the things, 
and again, I appreciate the leadership of the chairman on some 
of the legislation that has passed, because that is enabling 
telemedicine for some of the rural communities that otherwise 
do not have access to it, and I know that is something that 
Chairman Cummings has talked about in the past.
    Mr. Grothman. I was recently on another committee. We have 
these type of hearings on this topic frequently, and someone 
told me something that I was not aware of, but I wonder if you 
guys can confirm it. That is, if you go through a treatment 
situation and you come out without any of these opioids in your 
system, you are worse off, because the potential that you are 
going to start taking something again. You know, your body has 
lost its immunity to these things. You are more likely to die 
there than if you continue to give somebody some sort of drug 
when they break with the program. Otherwise, you would have 
been better off not finishing the program. Has any of you heard 
that or can confirm that?
    Mr. Carroll. Yes sir, I have. If I may?
    Mr. Grothman. Sure.
    Mr. Carroll. The people in their -- people who suffer from 
the disease of addiction, when they are either released from 
incarceration or released from a treatment center, they are the 
first. I think it might be 30 days or so -- the most vulnerable 
to having an overdose. If you think of it, sadly, in terms of 
alcohol.
    Mr. Grothman. Well I understand that. The question is, are 
we right that there are programs that you would be worse 
completing it?
    Mr. Carroll. I am so sorry, sir?
    Mr. Grothman. Is it correct that there are programs you 
would be worse successfully completing it than if you had 
dropped out because you would lose that immunity? That is what 
I was told by somebody else the other day in a subcommittee 
hearing.
    Mr. Carroll. I have not heard it put quite that way. I have 
it heard it more that people do not, you know, their tolerance, 
if you will --
    Mr. Grothman. I know. The question is, are there programs 
that you are worse completing it, because you get it all out of 
your system?
    Mr. Carroll. I am not familiar with that.
    Mr. Grothman. We will have to get that information for you. 
One more question.
    Chairman Cummings. Thank you very much.
    Mr. Lynch?
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank all the 
witnesses for helping us out here with this tough issue. I have 
been on this committee long enough to remember when opioid, the 
opioid crisis and fighting it was a bipartisan issue. And I am 
a little bit disappointed that some of -- I share Ms. Speier's 
frustration that now we are dragging in messaging issues and 
bringing them into this debate. My own experience here is that, 
you know, I have worked in a bipartisan fashion, Hal Rogers, 
when he was chair of the Prescription Drug Taskforce, in that 
group, I was his vice chairman. He would host events down in 
Atlanta and various other places and we would bring plane loads 
of people from Massachusetts to work, a lot of them democrats, 
to work on this problem. My Governor, Charlie Baker, he is a 
republican, and I do not think there is any Governor in the 
country that works harder on this issue than he does. And we 
are partners.
    So it does cause me some level of disappointment that it 
took so long to get here, Mr. Carroll. And that, you know, you 
wanted to sit at the table by yourself, things like that. Your 
predecessor, Mr. Botticelli, he was banging on our doors before 
we could get him up here. That was his approach. And to be 
honest with you, there is a handful of legislators that work on 
this issue 24/7.
    I had a starter -- I founded an adolescent residential 
OxyContin rehab facility in my district. I had 14 young boys 
take their lives in a suicide cluster that was connected with 
opioid abuse. And so through that experience, I worked with a 
lot of republicans around the country that were having this 
problem, West Virginia was hit. There is no state in the 
country that is not dealing with this. But Mr. Botticelli had 
that gravitas. He had been through it. He was a public health 
official in Massachusetts Department of Health. He ran an HIV 
program. So he is dealing with public health. And, you know, 
now when President Trump comes in, we got to wait two years. We 
got to wait two years for his, you know, his National Drug 
Policy Strategy, two years. We hear silence. Crickets, nothing. 
And then when it comes out, it is 23 pages. Obviously, you did 
not have to stay up late thinking this thing up. And it 
completely ignores the law.
    So we passed a joint bill here a few years ago to actually 
require metrics to be set up. That is what Ms. McNeil has been 
talking about. And your strategy completely ignores that. The 
bill we passed, those are not suggestions, that is the law. 
That is the law. So we are really disappointed the relationship 
we have got right now.
    I am delighted that Ms. McNeil has, and GAO, invited you 
over for an exercise on collaboration and training. But it has 
been a while. It has been a while. I am really disappointed. I 
know you were counsel over at Ford Motor Company, and I do not 
see, I do not see a lot of prior experience on your part in 
this area. And with President Trump's delay in addressing this 
and then appointing someone who, none of us have been working 
on this issue for years. You know, I filed my first bill on 
this to ban OxyContin in 2004. So it has been a while. And so 
when he appoints someone whose experience is thin, to be 
polite, to address a major issue where we are losing 70,000 
Americans every year to this, it is disheartening. It is 
disheartening. It does not show that he has the proper sense of 
urgency on this problem.
    So, you know, I just think you got to work harder. You got 
to try to collaborate. And there should not be a fight about 
getting you in here to talk to us. Like I said, for years, 
forever, this was a bipartisan issue. And, you know, it has 
taken a different flavor since President Trump has taken office 
and that is disgraceful. It is shameful. You know, we need to 
do better than that.
    So I do not have any questions. I just got a request. You 
need to work with us on this. We need to all be rowing in the 
same direction. People are dying out there. So let us do a 
better job. I yield back.
    Chairman Cummings. I want to thank the gentleman.
    Mr. Higgins?
    Mr. Higgins. Thank you, Mr. Chairman. Ladies and gentleman, 
it has been a healthy conversation. There are some things that 
have touched my heart. The chairman mentioned lack of executive 
guidance for passion and purpose and no detailed goals. Let me 
say that the law enforcement professionals tasked with securing 
our borders do not need bureaucrats or politicians who have 
never worn a badge to tell them what their mission is or to 
define for them their passion and their purpose.
    Their passion and their purpose is etched upon their heart. 
It is carved upon their soul. All they need is for D.C. career 
politicians to provide the resources and enhanced technology, 
physical barriers, and manpower that they have clearly 
requested, properly requested. Imagine that. Career D.C. 
politicians and deep D.C. bureaucrats quite upset that the 
President's overall strategy to combat massive deadly drugs 
that flow into our country is to actually allow law enforcement 
professionals to develop operations plans that are based on law 
enforcement reality rather than D.C. politics.
    My colleagues across the aisle have argued that our border 
security is working and most drugs are seized at legal ports of 
entry. That's not true. Since Fiscal Year 2012, Customs and 
Border Patrol has seized more than 11 million pounds of drugs 
between ports of entry, compared to only 4 million pounds at 
ports of entry. In fact, Customs and Border Patrol has seized 
more drugs between ports of entry than at ports of entry every 
year since 2012. And just to be clear, when I say between ports 
of entry, I am referring to the areas along our southern border 
that my colleagues across the aisle, since President Trump has 
been elected, determine is a partisan issue.
    We shall not have enhanced physical barriers prior to the 
President's election. This was a bipartisan conclusion. Mr. 
McDaniel, thank you for your service with thin blue line, sir. 
How is HIDTA responding to this onslaught of illegal drugs, 
this incredible flow crossing our border. You have a hell of a 
program. Share with America, how do you address this?
    Mr. McDaniel. Thank you, sir. What is the question, again? 
Excuse me.
    Mr. Higgins. How is HIDTA responding to the incredible 
increase of illegal, controlled dangerous substances coming 
through the Houston commander control sector?
    Mr. McDaniel. We have had, in my prior experience with DEA, 
I had to really rethink everything, because really we are 
having to join hand in hand with our treatment and prevention 
specialists there. We are having a holistic approach there and 
we are still focusing on law enforcement, but we are realizing 
that ----
    Mr. Higgins. It is not business as normal as it was, say, 
seven, eight years ago. Is it, sir?
    Mr. McDaniel. No sir.
    Mr. Higgins. Fentanyl, in my experience, is the most 
dangerous drug I have ever seen and I have pretty much dealt 
with them all.
    Mr. McDaniel. That is correct.
    Mr. Higgins. Would a more comprehensive border strategy, 
that includes enhanced barriers, modern technology, 21st 
century technology, and additional manpower, in your opinion, 
would that eliminate the dangerous drugs from being brought 
into our country between ports of entry?
    Mr. McDaniel. Yes sir, and I go back to your opening 
statement. Anything you guys could do for law enforcement and 
that you continue to do for law enforcement is greatly 
appreciated.
    Mr. Higgins. You would think the expertise of law 
enforcement is more significant and meaningful than the 
expertise of bureaucrats and career politicians in D.C.?
    Mr. McDaniel. I --
    Mr. Higgins. It is a dangerous place to answer that 
question.
    Mr. McDaniel. It is. It is, and I will let you tackle those 
tough questions.
    Mr. Higgins. We will let America judge that. Finally, 
regarding tunneling has been mentioned. In my remaining 40 
seconds, can you just clarify that tunneling across our border 
requires densities of population and criminal complicity on 
both sides of the border, because tunneling is easily spotted 
from the air. You have to have a criminally complicit warehouse 
on the southern side of the border and a criminally complicit 
warehouse on the northern side of the border. And this is not 
even to mention the challenges of tunneling through bedrock. 
Would you basically concur with that?
    Mr. McDaniel. I would concur with that, sir.
    Mr. Higgins. Thank you. So there are limited parts of our 
border where tunneling is an issue. Am I correct?
    Mr. McDaniel. Yes sir.
    Mr. Higgins. Thank you, sir. I yield, Mr. Chairman.
    Chairman Cummings. Thank you very much. Ms. Cortez.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman. Oftentimes, it 
seems that consciously or unconsciously, a narrative is 
reinforced that the opioid crisis impacts only one type of 
community. That is limited to people of a certain income, 
geography, race, culture, et cetera, but the truth is, is that 
it impacts all of us.
    In New York City, Bronx residents die of drug overdoses at 
a higher rate than any other borough. And, you know, for this 
reason, I would like to submit to the record, and I seek 
unanimous consent to submit to the record, this New York Times 
article that displays the urgent need for Federal opioid 
response.
    Chairman Cummings. Without objection. So ordered.
    Ms. Ocasio-Cortez. In urban communities. Thank you very 
much. I am concerned that when it comes to truly prioritizing 
and solving the opioid crisis, the President is saying one 
thing but doing another.
    Last month, President Trump declared a ``national emergency 
concerning the southern border of the United States,'' under 
the National Emergencies Act. And, you know, my colleagues want 
to talk of the southern border with relation to the opioid 
crisis, so let us talk about it.
    Because even at the time that he declared this emergency, 
he said himself, ``I didn't need to do this.'' But he did. And 
at the time the President declared this emergency, the White 
House issued a Statement and that, ``He would be using his 
legal authority to take executive action to secure additional 
resources,'' and he has transferred millions of dollars even 
from FEMA to ICE. The Statement said that the administration 
had identified funding that could be transferred from other 
agencies as well. This includes up to $2.5 billion that he has 
transferred from the Department of Defense and up to $3.6 
billion reallocated from military construction projects. So 
that is one national emergency he has identified.
    But about a year and half ago, the President issue a 
declaration indicating that opioids also consist -- constitute 
a public health emergency. Director Carroll, to date, how much 
funding has the administration transferred from other agencies 
to address the opioid public health emergency?
    Mr. Carroll. If you are referring to the opioid emergency 
that was declared 18 months or so ago. Very little money was 
actually transferred over. I am not sure of the exact amount. 
It was not very much money.
    Ms. Ocasio-Cortez. Right. We are seeing here. There is 
evidence that almost no money was transferred from other 
agencies. So we have two national emergencies. One declared on 
the southern border where the President transfers and is taking 
away millions of dollars from other agencies to address a wall 
which does not even solve these issues when we are seeing that 
it is focused on ports of entry. But second, we actually --
    Mr. Carroll. May I address that, actually? Just to make 
sure? I think that they were done with two different intents. 
When the opioid crisis was identified, it was to bring 
awareness, just like what you were talking about and what you 
have seen in your community and in your district. To make sure 
that people, parents, everyone understood the issue.
    Ms. Ocasio-Cortez. So we have got two emergencies. One is 
treated with an actual action and the other is just to raise 
awareness. But I do think that despite the fact that I disagree 
with how, I mean, disagree is a mild term, but disagree with 
the President's course of action, I do think that we here in 
Congress have responsibility here as well. The Public Health 
Emergency Fund has only, at most, $57,000 in it. And it is not 
been really funded congressionally in a long time. So I think 
that, that is an area where we can accept some personal 
responsibility.
    But also it is hard to ignore the private sector's benefit 
from the opioid crisis. Drug makers have poured close to $2.5 
billion into lobbying and funding Members of Congress over the 
last decade. Mr. Carroll, do you believe that private sector 
lobbying by the pharmaceutical industry could be playing a role 
in the opioid crisis?
    Mr. Carroll. I have not looked into the lobbying part of 
this at all. You did mention the public health, and I wanted to 
just mention something that the CDC has done that I think has 
been very helpful. We have been working with the CDC and DEA to 
make sure that, just like if there were an outbreak of a 
contagious disease. When there is an outbreak of overdoses in 
one cluster area, the HHS, through the CDC is working on 
creating a hot team to deploy immediately to those areas. And 
through the public health funds, that is one of the things that 
they are doing. So I just wanted to mention CDC.
    Ms. Ocasio-Cortez. Sure thing.
    Mr. Carroll. Because if there is an outbreak in your 
district.
    Ms. Ocasio-Cortez. So one last question. Specifically, 
perhaps Ms. McNeil or Mr. Carroll, but Ms. McNeil, did the 
declaration of a public health emergency for opioids make any 
additional funding available to expand treatment for 
individuals who had overdosed or to provide services to 
individuals who are in recovery?
    Ms. McNeil. I would like to invite my colleague, Mary 
Denigan-Macauley to answer that question.
    Ms. Denigan-Macauley. So we did look at the public health 
emergency declaration that was issued in November 2017 and 
subsequent to that. You are correct that the public health 
emergency funds were not used and that there is $57,000 
currently in that.
    Ms. Ocasio-Cortez. $57,000 that we have as a Government to 
address the public health emergency in this fund?
    Ms. Denigan-Macauley. That is correct. There are 
alternative funds that can be used, but in this case, they did 
not use this. And this emergency has never been used for 
opioids in the past.
    Chairman Cummings. The gentlelady's time is expired. Would 
you explain why that is? No, you. Yes, yes.
    Mr. Carroll. I just wanted to point out of the $34 billion 
that the Government spends, half, more or less, and I can play 
with the statistics. More or less half is devoted to law 
enforcement and then the other half, $16 or $17 billion goes 
toward treatment and prevention. Thank you.
    Chairman Cummings. Ms. Miller?
    Ms. Miller. Thank you, Chairman Cummings and Ranking Member 
Jordan. I am so thankful that we are having this hearing today. 
My home state is the epicenter of the opioid crisis. 
Prescription pain killers, fentanyl, and heroin flow across our 
port's borders and have devastated my community, my state, and 
our country.
    In January, 254 pounds of fentanyl was seized at a border 
crossing in the United States. This is enough fentanyl to kill 
every man, woman and child in West Virginia 32 times over. We 
have banded together as a state to meet this crisis. We have 
come a long way, but it is still -- there is still so much left 
to do.
    The opioid crisis is multifaceted. Its origins go back to 
the 1990's. However, the breaking point in West Virginia came 
with the war on coal and subsequent fall of the coal industry. 
Imagine being a coalminer in Appalachia. You have a great 
paying job, and you can provide for your family and have money 
to spare. Then 1 day, you have no job, no money, and you and 
your family has nowhere to turn due to overreaching regulations 
from the Federal Government.
    Not only did the mining jobs disappear, the businesses that 
supplied them and the workers were all affected. Their 
communities were devastated. That leads to great despair and 
hopelessness. Which leads to people turning to drugs. 
nationwide since 2000, there have been 300,000 deaths involving 
opioids. In 2017 alone, over 70,000 Americans died from a drug 
overdose. 47,000 and which were caused by opioids in over 
28,000 by fentanyl or fentanyl analogs. The same year, West 
Virginia had the highest rate of prescription opioid and 
synthetic opioid deaths and the second highest rate of heroin 
overdose deaths. There were 833 compared with 974 right in my 
state. I thank President Trump for declaring an opioid crisis. 
That it is a public health emergency.
    We need as much attention as possible on this issue to get 
addicted Americans the help they need. I believe we have good 
partners in the administration and Congress to combat this 
issue. This is one of the reasons I support the border wall and 
border security funding. I have seen how my community has been 
impacted by drug trafficking. We need to stop the drug cartels 
at the border. I am pleased that HIDTA drug trafficking area 
programs have been able to come into my state.
    HIDTA programs allow for Federal, state, and local 
Governments to use Federal funds to aggressively respond onto 
drug trafficking and other nefarious drug-related activities.
    In West Virginia, we are now seeing second generation 
impacts of this crisis. My state has one of the highest rates 
of neonatal abstinence syndrome in the country. One of the many 
horrors of opioid addition. Neonatal abstinence syndrome is 
when a baby is born prenatally exposed to drugs and suffers 
from withdrawal symptoms.
    For every 1,000 births in West Virginia, about 50 babies 
are born dependent upon drugs. I have visited facilities where 
these babies are taken to withdrawn from opioids. I have them 
cry and inconsolably and in terrible pain. I have talked with 
their mothers in recovery, battling this addiction. It is 
heartbreaking.
    We were blessed to have First Lady Melania Trump come to 
visit Lily's Place, a center in Huntington where babies with 
neonatal abstinence syndrome to receive care. Lily's Place was 
created by nurses in our local hospital. I am glad that she was 
able to learn more about the struggling that these families are 
facing. There is no silver bullet to solve the opioid crisis, 
but there are many steps that we can take in order to 
coordinate with Federal, state, and community partners to 
address it.
    We need to focus on the family as a whole promoting 
rehabilitation, work, self-sufficiency, and community support. 
And I will continue to work every day to find solutions for my 
constituents.
    Director Carroll, what steps has the Office of National 
Drug Control Policy done to address the neo-natal abstinence 
syndrome?
    Mr. Carroll. Thank you for the question. As I said, West 
Virginia really was at one point, really the epicenter of what 
has happened. And so, West Virginia and particular areas like 
Huntington, like I mentioned, have really thought hard and 
worked on this issue. Some of the things that the 
administration has done to address this issue, HHS awarded a 
grant to expand intellectual and disabilities. Training and 
research on NAS to make sure that the science is really 
understood about the cause of it. They have extended 
residential treatment by almost $10 million. For pregnant and 
post-partum women, for them to be together with their children 
in residential care to allow them to have that bond still 
there.
    HRSA, the Health Responses and Services Administration part 
of HHS, they have a maternal child health bureau that received 
an additional funding through Congress -- thank you, ma'am -- 
of over $3 million to help care for infant and toddlers.
    Chairman Cummings. The gentlelady's time is expired. Mr. 
Rouda?
    Mr. Rouda. Thank you, Mr. Chairman. And thanks to all of 
you for coming to help address this very important issue facing 
our country.
    Director Carroll, a year ago, President Trump signed an 
executive order establishing the Commission on Combatting Drug 
Addiction in the Opioid Crisis, which was charged with 
studying, ``the scope and effectiveness of the Federal response 
to drug addiction and making recommendations for addressing the 
opioid crisis.'' The commission, chaired by former New Jersey 
Governor, Chris Christie, released its final report on November 
2017, setting forth more than 60 recommendations. Director 
Carroll, how many of the more than 60 recommendations made by 
the President's Opioid Commission have been fully implemented?
    Mr. Carroll. Thank you for asking the question. I believe 
there are right about 56 recommendations come forward from 
there. And those recommendations were broad based. Some of them 
were absolutely under the purview of the administration. Some 
under Congress. Some were not even something that we could 
implement here from D.C. at all, that they were state based.
    Since I arrived, I have asked that our agency go back and 
start doing a scorekeeping to find out exactly which ones are, 
where they are in progress, and which ones might be stalled. 
And I have told Chairman Cummings that I commit to get you all 
that scorecard in terms of where they are. But that document 
was examined thoroughly, the commission's findings to make sure 
that it was understood when we implemented the National Drug 
Control Strategy on January 31st, the day I was sworn in.
    Mr. Rouda. Thank you and the second recommendation in the 
final report, ``The commission believes that ONDCP must 
establish a coordinated system for tracking all federally 
funded initiatives through support from HHS and DOJ.'' Has this 
recommendation been implemented?
    Mr. Carroll. Yes sir.
    Mr. Rouda. Okay, can you talk about how it has been 
implemented and what you found out?
    Mr. Carroll. What we are doing is we are working closely 
with -- the two main partners on this really -- and there are 
15 agencies in our departments that we have oversight through 
the drug control budget process. But obviously, HHS and 
Department of Justice are the two that we work mostly closely 
with and various components of them. They were consulted with 
the National Drug Control Strategy as well as the quantifiable 
metrics that we are developing now. The data supplement, as per 
the course, with past administrations will be reduced.
    I believe we are on track for the next few weeks to have 
the data supplement go out and then we are working with the 
rest of the agencies to make sure that we get the metrics to 
make sure that we address that point that you just said, sir.
    Mr. Rouda. Okay. And I want to turn to an issue that is 
front and center for me and my constituents in the 48th 
District of California in Orange County. We have seen a 
significant increase, as many other districts have as well, 
with drug overdose deaths and opioid-related emergency room 
visits. Coupled with that is the increase in what we call 
silver home living facilities. Specifically in my district, we 
have seen hundreds of sober homes that basically are fly by-
night operators that literally recruit addicts from around the 
country to come. They soak up the benefits that are provided 
under the ACA. And then the term used is they curb with them. 
Adding to the homeless population and additional crime in the 
community.
    I know that one of the recommendations by the Christie 
Commission, recommended that the Federal agencies, the National 
Alliance for Recovery Residence, and National Association of 
State Alcohol and Drug Abuse Directors and housing stakeholders 
should work collaboratively to develop quality standards and 
best practices for recovery residences, including model, state, 
and local policies. Has this recommendation been implemented?
    Mr. Carroll. Yes sir. I have met with those entities 
regularly and visited those facilities. And one thing that I 
want to thank you for and the rest of the members of the 
committee and Congress, that in the Support Act, as you know, 
that was passed, that was also in there, that there was a 
requirement for HHS to issue best practices for entities 
operating recovery housing facilities. And so we are working 
with them to make sure that, that provision of the law is 
actually followed through so there is a best practices. And 
also, we are working closely with the stakeholders that you 
just mentioned. And I think that they are actually, as we 
talked about earlier -- sometimes D.C. is not the best way to 
come up with some of these standards and some of the 
stakeholders are developing on their own, sort of a rating 
system, if you will, like the Better Business Bureau, to 
actually rate some of these facilities so that parents and 
other people who are, you know, helping get a family member 
into treatment.
    Mr. Rouda. And Congresswoman Chu, in the 115th Congress, 
submitted bipartisan legislation to specifically address the 
silver home issue. Have you reviewed that legislation, and do 
you support that legislation?
    Mr. Carroll. I have not reviewed it, so I cannot say 
whether or not I support it.
    Mr. Rouda. Thank you, Mr. Chair.
    Chairman Cummings. Thank you very much.
    Mr. Armstrong?
    Mr. Armstrong. Thank you, Mr. Chairman. I just want to 
preface this with, I am not talking about trafficking or any of 
those issues. I hope we lock those people up. I hope we 
continue to do those things, but I think there has been a very 
huge shift nationally in how we deal with addiction-related 
crimes, particularly for our young adults, and I think it is a 
good shift. But I want to just talk -- we have a drastic 
misconception. We did it in North Dakota. It was called Justice 
Reinvestment. I was actually the chair of the committee. The 
entire state of 750,000 people. And so, trafficking, often is a 
Federal crime. We can track it federally. But most addiction-
related crimes -- and you are a former prosecutor, right, at 
the county level?
    Mr. Carroll. Yes sir.
    Mr. Armstrong. So most addiction-related crimes happen at 
the local or the state level. So we need to be careful about 
the data and about doing this, because the data is only as good 
coming out as it is coming in. And what we found when we were 
doing this, and we have been doing it for six years in North 
Dakota, and we still continue to get it wrong. And it is not 
because there are not a bunch of really smart people and 
everybody sitting behind you looks really smart, too.
    But counties have been willfully bad in different 
jurisdictions are terrible about how they do it. On top of 
that, it is dynamic as it is moving. You know, I would say, 
unfortunately, the easiest way to track this is deaths. Then 
probably the second easiest way to track it is arrests. I mean, 
we found 85 percent of anybody who was in treatment had some 
interaction with the court system. And a third way is 
recidivism. Because what we are trying to do, especially with 
young offenders and young addicts is get rid of the recidivism 
rates. While recidivism, in and of itself, has become dynamic, 
because as states, red states like Texas, red states like North 
Dakota have realized that relapse is part, is now part of 
treatment. So instead of getting another charge, probation, 
state-run probationaries are getting better at intermediary 
probation measures that keep people out of prison.
    Just yesterday, our Governor signed a bill that got rid of 
some minimum mandatory sentencing on some drug addiction-
related crimes, and I think it is a direct correlation to the 
First Step Act, right. I mean the Federal Government is doing 
those things and now states are reacting.
    But for all of the work we continue to do and want to work, 
do here, the frontlines of this is going to be your mayors, 
your local police departments, your local faith-based groups, 
your charitable groups. When we were holding community 
meetings, the first two people I invited to every meeting was 
the chamber and realtors. And the reason is, I do not care if 
it is Federal Government. I do not care if it is state 
Government, if I cannot house them, and I cannot employ them, 
there is not going to be a single program that works that is 
going to continue to work through this.
    So we talk a lot about evidence-based treatment, evidence-
based prevention. There are very few rural communities that 
exist in the entire country that have one crisis bed. Or once 
addiction-related counselor. So I am going to start with a 
caution, and then I am going to ask for some responses. I mean, 
I understand when we do Federal programs, and we need to do 
these things. We have to also remember that Mott, North Dakota 
does not have an addiction counselor. What they do have is 
really good faith-based group at the church. And we got to -- 
we have to ensure as we are moving this forward that perfect 
does not become the enemy of good, because then I would feature 
to guess there is not a single community in the United States 
that has enough resources to deal with whether it is opioids or 
alcoholism or methamphetamine or whatever it is. But I can tell 
you rural America really is struggling on that.
    So when we develop Federal programs, Federal resources, I 
just want to make sure that those resources are getting to 
communities so that they can combat this in the way they, in 
the way they are able to do it in their local communities. How 
we deliver it in rural North Dakota is very different than how 
we deliver it in Minneapolis.
    So I am going to ask these two questions and then I am just 
going to kind of ask for comment. What are we doing about: A, 
the lack of counselors, the lack of people that are actually in 
the pipeline? Which I mean our university is right now, in 
order to continue to combat that, because we do not have 
enough. We do not have enough on the ground. We do not have 
enough in school and they are needed all across the country. 
And then two, how are you dealing with these programs to ensure 
that they are still effective in communities that do not have 
the services that you would qualify as best practices?
    Mr. Carroll. Let me try to answer as quickly as I can.
    Mr. Armstrong. Absolutely.
    Mr. Carroll. Thank you. Since I started at ONDCP, we have 
done -- undertaken a couple of initiatives to directly address 
the issue in rural America. On October 30th, 2018, we released 
-- I released from my office from ONDCP, in coordination with 
the Department of Agriculture, the Federal Resource Guide for 
Rural Communities, working with Commerce, Education, Labor, all 
of the important key agencies to make sure that we are 
addressing rural America.
    One of the things that is critical there also for rural 
Americans in telemedicine. And the Support Act also carries 
with it the ability to do that. I have seen telemedicine work. 
I sat in a hospital setting with a prescriber dealing with 
someone in a rural part of the state who had no access to 
treatment. We are working DEA to try to expedite mobile vans to 
try to get more of those out there. And also, as you might 
know, Secretary Perdue has been very instrumental in this. And 
I created the in-office within ONDCP to specifically address 
this, bringing over his point person, Anne Hazlett from 
Department of Agriculture on to focus on rural opioid 
coordination. We are tackling this issue head on.
    Mr. Armstrong. Thank you. I appreciate it.
    Chairman Cummings. Thank you very much. Let me say this. 
One of the first things I did, first of all, I agree with you, 
Mr. Armstrong. Faith-based services are very important. The 
first call I made when I became chairman was to the Ranking 
Member, and I said, ``I want to come visit your district, 
because I understand that you've got some great faith-based 
situations there.'' And so, I agree with you. This is very 
important. You are right, the Government cannot do everything. 
And I get that. But thank you for your comments. Now, Ms. Hill.
    Ms. Hill. Thank you, Mr. Chairman. And thank you, Mr. 
Carroll for being here. I ran a large organization that was 
working on issues of substance abuse and mental health and 
homelessness. And so, this is a big issue for my district. This 
is a big issue for me. And I recognize the difficulty of the 
task you have ahead and there you are relatively new to the 
position.
    I have a quick question. What would, for you personally, 
define success when you leave?
    Mr. Carroll. When I leave, the main definition of success 
is, there is not as many parents who have lost a child.
    Ms. Hill. Okay. That is a good -- that is the right kind of 
definition of success. So you wrote this strategy, right? Your 
office wrote this strategy outlining the President's priorities 
and setting the direction for accomplishing these priorities, 
correct?
    So assuming you and the administration actually want that 
to happen, do you thing that will happen if there a 23-page 
document of what should happen?
    Mr. Carroll. Yes ma'am.
    Ms. Hill. But how?
    Mr. Carroll. The -- first off, what I would point to is, 
since I have been in office, in an acting capacity, up until 
January 31, the accomplishments that we have already undertaken 
and already achieved. And, you know, with such things as what 
we launched last week was the Opioid Detection Challenge to try 
to develop technology with a million-and-a-half-dollar prize to 
try to find fentanyl and other opioids as they are coming 
through the mail.
    The Federal Resource Guide for Communities to try to help 
them. But at the end of the day, what is critically important 
is this document, which is the same average length as the 
military strategy document, the National Security, the Cyber 
Security, is this creates a vision. Ma'am, I could not do 
business -- there are 70,000 Americans dying as you know. And 
your district is hit hard. For me to continue to do business 
the way that it has been, I could not live with myself, because 
I do not think I would be serving your constituents or my own 
family.
    Ms. Hill. No, I do not think anyone wants you to continue 
doing business as usual.
    Mr. Carroll. That is why I developed it in this way, just 
try to vision, and I look forward to working with GAO as we 
have talked about today to make sure that we develop the 
metrics that Chairman Cummings, that other members of the 
committee on both sides.
    Ms. Hill. So one thing I am hoping that you can help to 
deliver as you are working on that, you know, I appreciate 
having an over-arching vision, which is more less, what I think 
this is. But what, you know, how are you going to make sure 
that each of those strategies is actually implemented? Who is 
accountable for that? What happens if at the end of your, you 
know, tenure, fewer people are not dying. Who is ultimately 
held to account and how is each agency, how are we ensuring 
that each agency that is supposed to be working on this is 
actually delivering?
    Mr. Carroll. And I sincerely appreciate the authority that 
the committee gave in the reauthorization. Because with a 
budget authority, that is how we can hold accountable the 
agencies and how they are spending their dollars on this issue. 
And that is why, you know, as we talked about the last one, 
which had 13 in all, you know, 11, 12 failed on this. And so we 
cannot do business like that. And that is why I hope and pray, 
I know you do too, that the agencies are able to use this 
wisely that we can work with GAO to develop appropriate metrics 
in addition for the chairman and ranking member and for you.
    Ms. Hill. So an example is implementing a nationwide media 
campaign. You talk about how Rx Awareness has started, and I 
think that is great. So will we be able to find out how much 
money there is that is spent on it, how it has been divided, 
who the media partners are, you know, actual details of how 
this is going to be effective?
    Mr. Carroll. Yes ma'am. I am particularly proud of the 
media campaign. With less than $400,000, I think it was 
$384,000, specifically. We were able to turn that into $20 
million worth of advertising with donated space working with 
YouTube, Google, Facebook, so many other companies. And what 
that has resulted in is a billion impressions ----
    Ms. Hill. See, this is great data. This is what I want. 
This is the kind of information that I want to see. How can we 
get that and what kind of a, you know, something heavier. This 
is what we have seen in the past, and, you know, I am not 
somebody who wants to look through 150, however many pages, 
necessarily, but when we want to get into a specific strategy, 
how are we able to do that?
    Mr. Carroll. That is what is going to be coming out. But on 
that media campaign, we now have 58 percent of kids, young 
adults, target audience, you have awareness of this. And so, I 
appreciate the little bit of money that Congress appropriated 
for this. We have used it wisely.
    Ms. Hill. In the short period of time that I have left, one 
thing that is missing from the strategy and hopefully this is 
coming, too. We have a -- we need to expand availability of 
treatment, enhance the quality of it. You know, the largest 
financer of behavioral health services is Medicaid, right?
    Mr. Carroll. Correct.
    Ms. Hill. So the ACA significantly expanded access to 
substance use, this sort of treatment, correct? And in addition 
to expanding parity for mental health services. So including as 
much as 18 percent for SUD. Do you believe that expanding 
Medicaid into additional states under the ACA would result in 
more states having more resources to deal with substance abuse?
    Mr. Carroll. I think in terms of being able to answer that 
question, the HHS would need to look into the -- how the impact 
of the ACA acts. But in terms of the treatment, and what we are 
seeing is, and I would love to get your help on this, there is 
an awareness gap in terms of the estimated 20 million people 
who need treatment and only 10 percent even try. And so trying 
to get them into treatment, the Support Act makes treatment 
more available. There is more money going to states, but if I 
could get help to close that gap to get more people into 
treatment, I would love it.
    Ms. Hill. Thank you.
    Chairman Cummings. The -- just out of curiosity, with 
regard to Medicaid.
    Mr. Carroll. Yes sir.
    Chairman Cummings. When -- with regard to the Affordable 
Care Act, you know, we had a lot of states that did not accept 
Medicaid under the Affordable Care Act. One of the -- a lot of 
people that get treatment, get it through Medicaid. Have you 
had any input with regard to your strategy on that and working 
with the administration?
    You know, in some of these states that are not --
    Mr. Carroll. One of the things that is critical under 
Medicaid is expanding the 1115 waiver. And that is something I 
know, Chairman Cummings, your staff has talked to our staff 
about. I am really happy to see that lifted so that we can get 
more people into treatment and to get Medicaid reimbursement 
back to them. Also in terms of treatment for people who are 
incarcerated and being able to get treatment for those people. 
Hopefully there are fewer and fewer of those, but, you know, we 
did a $4 million-dollar grant to ONDCP last fall for diversion 
courts. So that hopefully those people that just have an 
addiction stay out. But for those that are in, to try to get 
them treatment as well would be something I would like to 
explore.
    Chairman Cummings. Okay. Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. Mr. McDaniel, the 
democrats have said there is no crisis, no emergency on the 
southern border. In your judgment and your like 20-something 
years of experience, is there an illegal drug crisis, illegal 
drug emergency on our southern border?
    Mr. McDaniel. Yes sir.
    Mr. Jordan. There is?
    Mr. McDaniel. Yes sir.
    Mr. Jordan. Is there a gang and cartel crisis and emergency 
on our southern border?
    Mr. McDaniel. Yes sir.
    Mr. Jordan. And is there also a human trafficking crisis 
emergency situation on our southern border?
    Mr. McDaniel. Yes, there is.
    Mr. Jordan. So there is, all three?
    Mr. McDaniel. Yes.
    Mr. Jordan. Got a drug emergency. We have got a human 
trafficking emergency. We got a gang and cartel emergency on 
our southern border. Mr. Carroll, is there a drug crisis 
emergency on our southern border?
    Mr. Carroll. Yes sir. There is a drug crisis in our country 
and all of the drugs that are here are coming into our country, 
the fatal drugs, are coming from overseas, Mexico, China.
    Mr. Jordan. Is there also a gang and drug cartel problem on 
our southern border?
    Mr. Carroll. Absolutely. And there is no question.
    Mr. Jordan. And associated with this cartel activity is a 
human trafficking problem on our southern border. Would you 
call that an emergency or crisis as well?
    Mr. Carroll. And they are absolutely related, because these 
traffickers who are just completely morally depraved will trade 
anything. They will trade in drugs. They will trade in weapons. 
They will trade in children. They will trade in human lives.
    Mr. Jordan. So we got two experts here today, Mr. Chairman, 
on our panel, two experts with experience in this area. One, 
20-something years in law enforcement. He says there is a drug 
crisis emergency. There is a human trafficking crisis 
emergency. There is a gang and cartel violence emergency on our 
district or on our southern border.
    Let me go back to another point that was raised earlier. 
One of the earlier members, I believe it was Ms. Wasserman 
Schultz said, ``90 percent of drugs captured are captured at 
ports of entry.'' And Mr. Higgins disagreed with it, but let us 
assume for a second that Ms. Wasserman Schultz is right.
    Mr. McDaniel, does it surprise you that drugs are captured 
where there is actually law enforcement personnel?
    Mr. McDaniel. No sir. No surprise at all.
    Mr. Jordan. That is kind of common sense, is it not?
    Mr. McDaniel. Yes.
    Mr. Jordan. Like wow, we are actually capturing drugs where 
there are law enforcement personnel at the ports of entry. But 
we are also capturing some where there are not ports of entry. 
And my guess is, call me just some common sense guy from 
western Ohio. My guess is, a lot of drugs are moving across the 
border where there are not any good guys to stop them, right?
    Mr. McDaniel. That is correct.
    Mr. Jordan. Yes. And hence the reason we need a barrier. 
Hence the reason we need some kind of border security wall to 
help with that situation to deal with this crisis that is all 
over our country as the director points out. Would you agree 
with that, Mr. McDaniel?
    Mr. McDaniel. I would agree with that.
    Mr. Jordan. It is good common sense. So this argument, this 
argument, that ``Oh most of the drugs seized are at ports of 
entry.'' Well for goodness sakes, that is where, that is where 
we have law enforcement right there. Of course, that is going 
to happen. But there is all kinds of bad stuff coming across 
where there are not the good guys to stop the bad stuff.
    Mr. McDaniel, would you agree with all that?
    Mr. McDaniel. Yes sir.
    Mr. Jordan. Now, to the point Mr. Higgins made. Is -- how 
much is actually seized, though, where there are not ports of 
entry. We are still catching some of it, right? We are still 
getting some of it?
    Mr. McDaniel. Yes sir.
    Mr. Jordan. Is it more or less than what we are getting at 
the ports of entry?
    Mr. McDaniel. More between the --
    Mr. Jordan. Between the ports of entry. Democrats say, 
``Oh, we're only getting it at the ports of entry.'' Well of 
course we are, because we got law enforcement there. But 
between the ports of entry where they can just cross and there 
are not law enforcement personnel right there, we are still 
capturing some there at some points, right?
    Mr. McDaniel. Yes sir.
    Mr. Jordan. Yes. Is it more or less than we are getting at 
the ports of entry?
    Mr. McDaniel. There is no way to tell, because we -- the 
big unknown is what are we missing. Obviously, we are missing a 
lot.
    Mr. Jordan. Of course. Of course.
    Mr. Carroll, have anything to add to all of that?
    Mr. Carroll. Yes sir, I mean, obviously I completely agree 
with Mr. McDaniel. In terms of if you just go by weight, and I 
mean I can break it down by drug, if you would like. But the 
numbers that I have from Customs and Border Protection for 2018 
reflect the total weight of drugs at ports of entry in 2018 was 
432,000 pounds of various drugs.
    Between ports of entry for the same timeframe, Fiscal Year 
2018, 476,000.
    Mr. Jordan. So actually more, even?
    Mr. Carroll. In terms of total weight, but I can break it 
down by drug, if you want.
    Mr. Jordan. So here is my big question I want to ask for 
the other side. Because just a few weeks ago, that enough 
fentanyl was captured to kill 57 million Americans. Remember 
this story when this happened? Just a few weeks back, right?
    Mr. Carroll. Yes sir.
    Mr. Jordan. 57 -- so if that is not an emergency, somebody 
tell me what is. Enough fentanyl to kill 58 million, 59 
million? I mean, how bad does it have to get before we actually 
say, this is an emergency. For goodness sake, we got the two 
experts who said it is an emergency on illegal drug 
trafficking, illegal human trafficking, and of course, the gang 
and cartel violence. It is an emergency and there is no way 
around it. Let us do everything we can to deal with the 
problem.
    Again, I want to thank you all for being here and for your 
fine testimony today. I yield back.
    Chairman Cummings. Mr. Clay?
    Mr. Clay. Thank you, Mr. Chairman. Let me thank the panel, 
too, for participating today. Good to see you again, Director 
Carroll.
    Mr. Carroll. Yes sir.
    Mr. Clay. Let me ask you, on January the 30th, 2018, the 
DHS Inspector General issued its Drug Control Performance 
Summary report for the Coast Guard. The report indicates that 
more than 2,700 metric tons of cocaine flowed toward the U.S. 
in Fiscal Year 2017. In that year, the Coast Guard removed 223 
metric tons of cocaine through its interdiction efforts. And 
this was a new record. However, even with that extraordinary 
achievement, the Coast Guard failed to achieve this removal 
target of 11.5 percent.
    Then in Fiscal Year 2018, the Coast Guard removal rate 
target, meaning the amount of cocaine the service was working 
to interdict or destroy was lowered to 10 percent. The question 
is, why was the Coast Guard's drug removal rate target lowered 
and how was 10 percent chosen as the new target?
    Mr. Carroll. Thank you, Congressman for the question. I 
started last year in February. So I am not familiar with 
exactly why that percentage was altered. But if I could talk 
about, for a second. This is where I am certain it sort of gets 
into the National Drug Control Strategy and why it was 
developed in such a way that it is.
    I think it is a little bit -- it can be misleading if all 
we do is focus in on weight. I have to say that U.S. Coast 
Guard are incredibly brave men and women out there who are 
working so hard. It is amazing. And the last three years that 
Coast Guard removed 1.4 million pounds of uncut cocaine and 
brought almost 1,800 people to justice from their operations. 
The Coast Guard is a fine example.
    But let us say that -- so over the last three years they 
removed 1.4 million pounds. And over the next three years, let 
us say that they remove a million pounds. That does not mean 
that it is a failing grade. It could mean that our efforts with 
President Duque in Colombia has -- the area of radication has 
restarted. That their efforts there and with the aid of U.S. 
Government and it will also move to licit crops instead of 
illicit crops.
    So it could be that actually some of the efforts that were 
working in Colombia are improving. So that is why I think we 
have to measure effectiveness and not just pure numbers.
    Mr. Clay. And, Director, I have visited Colombia and 
visited our troops who are embedded with the Colombian 
military.
    Mr. Carroll. Yes sir.
    Mr. Clay. To try to change from one crop to another. And to 
also engage in the interdiction efforts also. And, and they are 
making good progress, but let tell you what in an interview 
published in 2017, Admiral Paul 2:47:25.3, who was then the 
Commander of the Coast Guard said because of resource 
limitations, the Coast Guard, ``Cannot catch all the drug 
smuggling we know about.'' He stated that in the previous year, 
the intelligence had nearly 500 possible shipments that could 
not, that they could not go intercept them, because we did not 
have the ships or planes to go after them.
    So we had actual intelligence on drug shipments, but we did 
not have the resources to stop them. Director Carroll, do you 
know how many known or suspected drug shipments moving toward 
the U.S. at sea, we fail to stop today because the Coast Guard 
does not have the resources such as ships and air support?
    Mr. Carroll. I do not know that I have the exact number at 
my fingertips, and I do not know that if I did, I would want to 
say, specifically to our drug traffickers the chances of 
success in getting through. But to your point, which I think 
is, if the Coast Guard had more assets they would be able to 
stop more drugs at sea.
    The Coast Guard, and I know have been working with several 
members of the committee, I believe, to talk about making sure 
they have a force readiness and restoring that to a capability 
where they could. I meet routinely. In fact, my next 
conversation with the commandant on the Coast Guard is set for 
this afternoon. Hopefully will be leaving soon.
    [Laughter.]
    Mr. Carroll. And I meet with him routinely. When I went 
down to Colombia, I had the commandant and Coast Guard go with 
me so he could meet the new President. When we formed the first 
new HIDTA in 17 years, last year up in Alaska, I had the 
commandant go with me there.
    The Coast Guard plays such a vital role. But just so you 
know, I mean, we are also seeing drugs come in from Alaska by 
ship that the Coast Guard is working so hard on as well.
    Mr. Clay. All right, thank you.
    Mr. Carroll. I'm sorry, just one more ----
    Mr. Clay. Mr. Chairman, I yield back.
    Chairman Cummings. Mr. Steube?
    Mr. Steube. Thank you, Mr. Chairman. Thank you for, 
everybody for coming here today. One of the challenges of being 
a freshman in Congressman in the minority with the last name S, 
is I get to be the last person to ask questions. So I apologize 
if some of has already been discussed. But I kind of want to 
talk about -- you had testified and I thought it was elicited 
that there is 8,100 pounds of cocaine between the ports of 
entry that have been interdicted. 124,000 pounds of marijuana. 
112 pounds of fentanyl and that was between the ports of entry. 
Do you guys have any estimates as to what is coming through -- 
between the ports of entry that were not interdicting. Like 
based on these numbers, can you give estimates on what we are 
not capturing that is coming across the border?
    Mr. Carroll. I would hazard to guess, because you do not 
know what do not know. But I think one thing that you could do, 
and I think we should probably sit down with a statistician. 
But this is how I look at it from a rather simplistic view is 
let us just take cocaine, because that is one of the better 
examples we know since we were just talking about the Coast 
Guard.
    We know that Colombia is capable of producing over 900 tons 
of cocaine annually. And we are working hard with President 
Duque to eliminate that. We know the Coast Guard is seizing 
hundreds of tons every year with that. And then at the border, 
there are tons being seized as well. Customs and Border Patrol 
seized 800 or 900 pounds a few months ago, maybe two months ago 
at the most, between a port of entry on a UTV, on all-terrain 
vehicle, six-wheel vehicle, a John Deere-type vehicle where it 
tried to raid across the river, and that was cocaine.
    So we know we can estimate the number of tons of cocaine 
that are caught. We know 921 are capable of being produced. We 
know not all of those is destined for the U.S. You can put 
round numbers. But we are, for example, we have got to be in 
hundreds of tons of cocaine that is not being caught just by 
that very example right there.
    Mr. Steube. Well that is just cocaine. That is not it.
    Mr. Carroll. Fentanyl is a complete unknown. I mean we have 
150,000, at least, chemical labs in China. And those drugs, as 
we know, are going into -- either coming into the mail, being 
trans-shipped or coming across the border from Mexico. We have 
no denominator for that. We have a ballpark denominator for 
cocaine and plant-based heroin. But the synthetics is a 
complete unknown.
    Mr. Steube. And it was your testimony here today that 
building the wall in the places between the ports of entry 
where we do not have anything to prevent people from coming in 
with all of these drugs is something that you recommend?
    Mr. Carroll. We have to do everything we can to save 
American lives. We have to build a wall. We have to have more 
law enforcement officers, not only on the border, you know, 
under DHS. We need more ships with the Coast Guard and we need 
more of the thin blue line here in the United States. We also 
need to decrease demand in the U.S. through prevention efforts 
and treatment efforts.
    Sir, we have to -- this truly is a crisis. For 70,000 
people dying. My bottom line is we are going to save lives by 
doing whatever we need to do.
    Mr. Steube. And by building that wall that would prevent 
just 112 pounds of fentanyl and we saw the little display 
earlier of the salts, grams or small amounts of that, that 
literally can kill hundreds of people, thousands of people, 
millions of Americans. It would save lives if we were able to 
do that?
    Mr. Carroll. If we are -- if that fentanyl does not come 
into the U.S. we are saving a life.
    Mr. Steube. Well thank you for your time here today.
    Mr. Carroll. Thank you, sir.
    Mr. Steube. I yield back.
    Chairman Cummings. Mr. Welch?
    Mr. Welch. Thank you very much. Thank the panel, very 
important work that you are doing. Director Carroll, I wanted 
to ask you a few questions about naloxone.
    Mr. Carroll. Yes sir.
    Mr. Welch. You know, the Christie Commission on Opioids 
described naloxone as the first line of defense on the opioid 
epidemic. And the commission recommends that all law 
enforcement officers across the country be equipped with it.
    Mr. Carroll. Yes sir.
    Mr. Welch. And does the National Drug Control Strategy set 
forth specific steps to ensure that all law enforcement 
officers across the country are going to be equipped with 
naloxone?
    Mr. Carroll. That is one of the things that is critical is 
to make sure that these officers have it. And we set forth this 
through a number of grants that have already come out to state 
treatment, excuse me, state response funds to make sure that 
states have the discretion about the best way to give it to the 
law enforcement or the first responders.
    Mr. Welch. But right now, there are really widely varying 
levels of access, 2:54:04.2 across the country, right?
    Mr. Carroll. It is actually interesting, I was with, on 
Monday this week, a hundred local behavioral specialists in the 
field. And that was one of the questions I asked them, because 
I want to know the answer. If something is failing, I want to 
know, and I tell you, I asked them, ``Does anyone have a hard 
time getting naloxone?'' And the answer, thankfully -- but I 
have to admit, I was surprised -- was no. They all have the 
ability to get naloxone.
    Mr. Welch. You know, actually I am surprised at that, too.
    Mr. Carroll. Me too.
    Mr. Welch. That is not what I hear. You know, that the -- 
affordability is a real challenge for communities in Vermont. 
And just talking to some of colleagues, I hear republican and 
democrat, that affordability is a real issue.
    Mr. Carroll. And I was surprised, too. I do not want to --
    Mr. Welch. Well let me just go on.
    Mr. Carroll. But can I talk about naloxone pricing just so 
you mentioned it. In the last two years, naloxone prices have 
remained stabled and that is something we have been able to 
keep pushing. And I appreciate Congress' help on that also.
    Mr. Welch. Right. And dealing with the price is what I want 
to get to.
    Mr. Carroll. I am sorry, sir.
    Mr. Welch. It cannot be accessible if it is not affordable. 
And tax payers are really burdened. And our police forces are 
overstretched. You know, by the way, it is amazing what our 
first responders do. You know, as they show and as they have to 
administer naloxone to save a life. And then they may have to 
come back 2 weeks later, and it is the same person.
    Mr. Carroll. Sometimes the same day.
    Mr. Welch. I am amazed at the patience and goodwill of our 
law enforcement community.
    Mr. Carroll. Their fatigue is something we do worry about.
    Mr. Welch. Right. But naloxone, a generic drug, the nasal 
spray version which is developed using taxpayer funding. It 
costs $150 bucks for a two pack. That is a lot of money in a 
lot of our small Vermont communities. A two pack for the auto 
injector, as I understand it, is $4,500 bucks. So my view, that 
is pretty expensive and my question is, does the administration 
plan to carry out the Christie Commission's recommendation that 
the Government negotiate for lower prices for naloxone.
    Mr. Carroll. Naloxone is a covered benefit for all Medicaid 
patients, as I understand it. And we are working to make sure 
all insurance plans cover it.
    Mr. Welch. Well we are talking about negotiating a lower 
price. In other words, I get it that it is a covered benefit, 
which is good. But somebody pays that cost. Is it the employer-
sponsors, the healthcare plan, the taxpayer who provides the 
healthcare benefit through Medicaid or Medicare, or sometimes 
self-pay? So getting the Christie Commission recommendation of 
price negotiation, I think is an excellent recommendation, and 
I am wondering where you are on that?
    Mr. Carroll. I could not agree more. I know in the 
timeframe like 2012 to 2016, naloxone prices skyrocketed.
    Mr. Welch. Right.
    Mr. Carroll. And my office --
    Mr. Welch. So can we get some support to implement the 
Christie Commission recommendation of price negotiation?
    Mr. Carroll. Yes sir. What I was going to say was, my 
office back then, this was even prior to President Trump, under 
President Obama, ONDCP had some sort of -- I was not there, 
obviously -- but it had some sort of listening session, 
roundtable. Maybe the chairman is aware, in which they were 
very forceful in terms of bringing down that price.
    Mr. Welch. Let us stay on that. You got to bring the price 
down. Okay, I would like to get Governor Christie --
    Mr. Carroll. I have got mine with me.
    Mr. Welch. I hope you do not have to use it.
    Mr. Carroll. I will say, also, that I believe in naloxone 
to the point that I was the first, and --
    Mr. Welch. Really.
    Mr. Carroll. I think I might be the only one to require all 
my employees to get the -- trained on naloxone.
    Mr. Welch. That is fantastic. Rescue breathing, the 
strategy points out that simple rescue breathing can keep a 
person alive until help arrives. Does rescue breathing reverse 
an overdose?
    Mr. Carroll. It keeps them alive until a first responder 
can there with Narcan.
    Mr. Welch. So it is not an effective replacement for 
Narcan?
    Mr. Carroll. It keeps them alive until Narcan gets there or 
naloxone, you know, the drug gets there.
    Mr. Welch. Right, okay. Thank you very much. And chairman, 
I yield back.
    Chairman Cummings. Thank you very much. I yield/give myself 
some time. I have sat here and listened to all of this and 
first of all, I want to say, thank you to all of you.
    So often, Mr. McDaniel when the minority has a witness, 
there is a lot of disagreement. I agree with you. I love HIDTA. 
HIDTA is one of the best things that ever happened with regard 
to dealing with this problem. And one of the reasons why that 
is, is because they take the resources of different agencies 
and bring them together. They then communicate so they are not 
all silos. And again, everything I do, everything, walking to 
that door, I want to be effective and efficient.
    And it is an effective and efficient way of trying to deal 
with this problem. And so, I thank you. You will not get an 
argument from me on that one. Director Carroll, first of all, 
let me express my concern and my sadness with regard to your 
relative that you talked about. I watched you very carefully. 
And as you were speaking, I could tell that it was very 
emotional for you. As a trial lawyer, I watch(ed) witnessed 
carefully. And, you know, Director Carroll, they say that we 
have one of the best staffs on Capitol Hill. You know why that 
is? First of all, there is nobody that comes to my office, even 
an intern, that I do not interview. And I look for two things. 
They got to have these two things: They -- well first of all -- 
they usually do not get to the interview unless they got them. 
One, they got to be smart. And two, they got to have compassion 
for the issues that we deal with.
    There is a reason for that. Because I can have a smart 
person with no compassion. So that means that they are not 
going to necessarily do things that need to be done. They are 
smart. Or they can have their passion and not be smart. And so, 
that is a problem. I think you have both. You thought I was 
going to say something else? I saw you drop your head. Do not 
forget what I said. I am watching you.
    I think you have both. I think you have compassion, and I 
think you are a smart man. So what we have to do is take your 
smartness and your compassion and direct it so that we can do 
what? Be most effective and efficient. This is your watch. You 
have come on the scene. You did not -- tell my, I tell my staff 
that a lot of times the crisis, you do not go to the crisis, 
the crisis comes to you. So you are here for a reason and a 
season. And I am praying, and I know Mr. Welch and all of us on 
both sides, we pray that you will be successful.
    But I want you to understand something.
    Mr. Carroll. I will pray for you, too, sir.
    Chairman Cummings. I'm sorry?
    Mr. Carroll. I will pray for you, too.
    Chairman Cummings. Yes, pray hard, man. But we -- that is 
important to us. One of the things that I also tell my staff is 
that I want Government to work for people. It is important to 
me. I mean almost everybody -- I do not know if you noticed, 
almost everybody on both sides of the aisle talked about what 
an urgent problem this is. I will never forget, Mr. Carroll, 
give you a little bit of my history.
    Joe Scarborough, Morning Joe, he and I were on this 
committee and we were over the drug committee. That is how we 
became such good friends. And we did a lot of good things 
together. He was a conservative republican, and I was a guy 
from Baltimore, a liberal. But we were able to do things 
together. And it was so refreshing. So in that spirit, now we 
move forward, right.
    I know some of the questions, I told you, some of the 
questions would be difficult. But I am just going to ask you 
some general things that I am concerned about. And to you, Ms. 
McNeil, your testimony was excellent, but I want to make sure 
we are all coming together. Because, again, one thing I noticed 
about life, is people have a tendency to go in circles. They go 
in circles. And they are looking for an exit to get to where 
they got to go. Sometimes they are distracted. Sometimes they 
just lose sight. But sometimes they just cannot find the exit 
to get there.
    So we have now, and you can help me with this, Ms. McNeil. 
We have given the ONDCP, we have basically given you the exit 
sign. You know, how to get to where you got to go. You have 
already told me what you are trying to do. I believe you. But 
we are giving you the exit. In fact, the exit sign is there. 
Ms. McNeil is standing up there with a big sign. She is saying, 
``Follow the law.'' And then, not only does she say, ``Follow 
the law.'' She tells you what the law is. She says --but she 
said something else. ``I will help you.'' She said something 
else. ``Give me something to work with. Let me interview your 
people.'' Right.
    Okay, now. You are with me?
    Mr. Carroll. Yes sir.
    Chairman Cummings. I just want to make sure you are 
following me.
    Mr. Carroll. Yes sir.
    Chairman Cummings. So here we are. And so under the law, 
let me just, under the law in place in 2017-2018. I am going to 
ask you about the -- as well as last year's reauthorization. 
The ONDCP director is required to ``consult with the heads of 
the National Drug Control Program Agencies in developing the 
drug patrol strategy.'' That coordination is part of your job. 
Is that right?
    Mr. Carroll. It is part of the job of ONDCP director, yes.
    Chairman Cummings. Right, that is right. Is that right, Ms. 
McNeil?
    Ms. McNeil. Yes sir.
    Chairman Cummings. And I guess the thing that is bothering 
me is we keep talking about whether you are going to do certain 
things and whether there is a debate, some kind of debate, with 
regard to what you are going to do, but it is the law. Is it? 
Hold up. It is already done. Got a big sign. You got a whole, 
you got one of the best departments in the country in Ms. 
McNeil's agency. They are credible big time, and they want to 
help.
    So and they are saying, ``Follow the law.'' But let me ask 
you this, does a 23-page strategy comply with the law? Do you 
think so? I mean, in your honest opinion?
    Mr. Carroll. Yes sir.
    Chairman Cummings. Based on what Ms. McNeil said.
    Mr. Carroll. Yes sir. Based upon, and I am giving you my 
honest, under oath --
    Chairman Cummings. Yes, good.
    Mr. Carroll. It absolutely complies with the law. We did 
all the consultations leading up to this relying on the draft, 
National Drug Control Strategy, that was in place, in process 
when I got there. Looking at all the other reports, such as the 
Chris Christie report that we talked about earlier. Using all 
of those documents that were there and then spending a year 
doing this.
    Chairman Cummings, at the very beginning of this, over 
three hours ago, and I wrote it down, because --
    Chairman Cummings. This is a short hearing, here.
    Mr. Carroll. I am sorry, sir?
    Chairman Cummings. I said this is a short hearing.
    [Laughter.]
    Mr. Carroll. Well a short time ago, three hours ago, you 
said that you were a deliberate and careful person.
    Chairman Cummings. That is right.
    Mr. Carroll. So am I. And so, this strategy was written in 
a very deliberate and careful way. It was meant to comply with 
the law. But more importantly or just as importantly, in my 
mind more importantly, was designed to save lives. So what we 
are doing is following the law and, as I said, we are going 
through the interagency process to develop the metrics. I think 
-- I hope you heard me a few minutes ago when Ms. McNeil said 
that they have experts to help with the metrics, and I asked 
her what she is doing tomorrow. And first I have heard that she 
has tried to meet with me. I do not know if you have to 
interview me. I have not heard that request.
    Ms. McNeil. Not you specifically. Your staff.
    Mr. Carroll. And so we will make -- anyone she wants to 
meet with, you know, that is appropriate, we will make it 
instantly available. First time hearing any of that. We want to 
partner with her and her agency.
    Chairman Cummings. Can I tell you something?
    Mr. Carroll. Yes sir.
    Chairman Cummings. If my staff, if I came into a meeting 
and my staff did not tell me that, what, and I am coming to 
here. Somebody would not have a job. I am just letting you 
know.
    Mr. Carroll. Well we have been meeting with them every 
week.
    Chairman Cummings. Whoa, whoa. I am not trying to get 
anybody in trouble. Welch, you probably feel the same way. I 
tell my staff you are not paid to embarrass me. And what I am 
saying to you is that we come in here and you are telling me 
the very person that you are sitting across the table with, the 
very person who will, who have concerns, the very person who we 
would consult to make sure we are on the right track, you did 
not even know ----
    Mr. Carroll. She has never reached out to me. She just said 
that she has never even tried to talk to me. I was the one who 
said, ``Let's meet tomorrow.''
    Chairman Cummings. Did you hear what I said?
    Mr. Carroll. Yes sir, I did.
    Chairman Cummings. Staff, all right. Staff. Okay. And do 
not -- I am not trying to beat you up, man. I am just being 
honest with you. I am trying to be effective and efficient. We 
got people dying. That is all.
    Now, Ms. McNeil, he said that he has complied. You agree 
with that?
    Ms. McNeil. No, we do not agree that -- they, that ONDCP 
strategy is in compliance with the 2006 statute. We do not 
agree.
    Chairman Cummings. And you said that earlier, I think you 
were trying to find your notes. Did you cover everything you 
said that was lacking?
    Ms. McNeil. We -- I did. Yes.
    Chairman Cummings. Yes, I do not want to go over it again. 
See, see, I want to make sure you all are -- I know you are 
getting tired of this. And I want to make sure you are on the 
same page. You know, another thing I tell my staff. When I hire 
somebody, I say to them, I say, ``I want to know what you 
expect, but I want you to know what I expect.'' And it has got 
to be a two-way street. So I want -- she needs certain things. 
You want to help. I just want to bring you together like a 
marriage. Seriously. So that we can get some things done.
    Now, now Ms. McNeil in the past, in past administrations, 
did ONDCP rely on the data supplements to comply with the legal 
required, requirements applied to the strategy?
    Ms. McNeil. I do not have an answer to that question. We 
can find that answer and get back to you on that one.
    Chairman Cummings. All right. How soon can I get that?
    Ms. McNeil. Very soon. Within the week.
    Chairman Cummings. Thank you very much.
    Chairman Cummings. Who wrote this? I mean did -- would this 
be the 23-pager, was this by ONDCP in its entirety or did you 
have other people inputting?
    Mr. Carroll. It was written by staff at ONDCP. We did bring 
in one contractor with an expertise in drafting strategies just 
to make sure that it was written in, not a political 
individual. It was strictly a, one contractor to help, bringing 
everything together to make it one document.
    Chairman Cummings. Can you tell us who that contractor is?
    Mr. Carroll. I am sorry, sir?
    Chairman Cummings. Who is the contractor?
    Mr. Carroll. He was actually on loan from another 
government agency. I would rather not say his name publicly, 
but we brought him along from --
    Chairman Cummings. Well you can let us know. You can let my 
staff know?
    Mr. Carroll. Yes. Yes sir. He came over, I believe from 
DIA, Defense Intelligence Agency. I am not sure which one, but 
it was one of the national universities or DIA. But then we had 
all of the career professionals at DI -- at ONDCP actually do 
the drafting. I mean, political, if I think, if I am answering 
your question, maybe that you are not asking if political 
individuals wrote or political appointees wrote it? That is not 
the case.
    Chairman Cummings. I was not asking you that. But you 
answered me.
    Mr. Carroll. Thank you.
    Chairman Cummings. So they, they did the research? This 
agency, this organization, consultant?
    Mr. Carroll. I am sorry, sir. Could you repeat the 
question?
    Chairman Cummings. Well I had asked you who prepared the 
23-page strategy.
    Mr. Carroll. ONDCP staff. Career staff.
    Chairman Cummings. So what role did the contractor play? 
Let me tell you why I am asking you this.
    Mr. Carroll. Sure.
    Chairman Cummings. I mean you have given us the document 
that Ms. McNeil has said is inadequate. So, you know, we are 
paying this person or these people. We are paying as tax 
payers. We are paying them. And I want to know, you know, what 
is the disconnect because I got to make sure you all are 
connected.
    Mr. Carroll. I do not know that there is a disconnect. I 
was not -- with 70,000 people dying -- I was not going to do 
business as normal. I had ONDCP career staff write this report.
    Chairman Cummings. But what role did the contractor play?
    Mr. Carroll. He just helped assemble it and make it a -- he 
is an instructor at one of the national universities, and he is 
a good writer. He did not come up with the vision. It was my 
vision, our vision at ONDCP. We are placing more emphasis on 
this individual from DIA than I think is appropriate. But I am 
happy to let you speak to him.
    Chairman Cummings. All right. I do not know if you know 
this, but one of my so-called expertise within the Congress is 
maritime. I used to be the chairman of the Coast Guard 
subcommittee. So I am very, very familiar with the Coast Guard. 
It is a .
    Mr. Carroll. Could not agree more.
    Chairman Cummings. And by the way, by the way, I want to 
make sure that our ONDCP people understand that I know that 
they are doing a great job. I know that.
    Mr. Carroll. Thank you, sir.
    Chairman Cummings. They put their blood, sweat, and tears 
into this. I got that. But it is like, again, I hate to keep 
talking about the way I run my office. But if I have in my 
office, if I see somebody not doing something the way it is 
supposed to be done, I do not look at them, I look at me. And 
you know what the first question I ask, ``Did I properly train 
them?'' Did I properly give them my expectations? And so, 
because I think it is unfair to them if I am expecting 
something and they do not know it. Well they do not know how to 
do what I am expecting.
    So I am just trying to get to the bottom line. So now going 
to the Coast Guard. The Coast Guard is a drug control program 
agency. And it is the lead Federal agency for drug interdiction 
at sea.
    Mr. Carroll. Yes sir.
    Chairman Cummings. But the Coast Guard said that you did 
not consult with them about the drug control strategy.
    Mr. Carroll. Who said that, sir?
    Chairman Cummings. I am getting to get into -- let me 
finish.
    Mr. Carroll. Thank you.
    Chairman Cummings. Committee staff asked the Coast Guard. 
They responded, this is their quote. And we will get the name 
of the person.
    Mr. Carroll. I would like to know the name of the person.
    Chairman Cummings. Okay, we will get that. I promise you we 
will get it. We will have it for you. But let me, let me just 
read what they said. They said, ``The Coast Guard did not have 
specific involvement in the drafting and review of the National 
Drug Control Strategy.'' And just to be clear, ONDCP was 
required under the statute to consult with the heads of drug 
and control program agencies. And you just said that the Coast 
Guard would be one of those agencies.
    So why, if this is accurate, why did not the Coast Guard, 
which is also served as the chair of the Interdiction Committee 
as you well know, have any role in drafting and reviewing the 
National Drug Control Strategy?
    Mr. Carroll. I can promise you that is inaccurate. That 
might have come from a Coast Guard Leg Affairs office here, but 
I do not work with them. I work with the commandant of the 
Coast Guard. They absolutely had input into this and they 
absolutely were the ones who provided in put on this. That 
could not be more wrong, and I am sure, as you said, in terms 
of staff, I am sure that the commandant would be very 
interested to hear that, considering he and I have such a great 
relationship and we talk every day. I can promise you this was 
not -- no one who had to do -- I do not see -- I do not know 
what individual at what level that was, but I suggest you 
direct the question to the Commandant of the Coast Guard and he 
will --
    Chairman Cummings. I know him, and I know him well. I will 
do just that.
    Mr. Carroll. Thank you.
    Chairman Cummings. Let me ask you this. You said to Ms. 
McNeil, again -- Ms. McNeil, I just want to be clear. I do not 
want you to be sitting waiting and not getting what you need.
    Ms. McNeil. Thank you. I appreciate that.
    Chairman Cummings. You said that Ms. McNeil could interview 
people, ``as appropriate.'' Who would be an -- the appropriate 
person for GAO to interview?
    Mr. Carroll. I am turning to her who she would like to 
interview, but I will make them available.
    Chairman Cummings. So she can -- she told you the kind of 
information that she needs. You would know in your agency who 
handles that information, right?
    Mr. Carroll. Yes sir, a bunch of my staff have been 
interacting with them.
    Chairman Cummings. Would you give her a list?
    Mr. Carroll. A list of --
    Chairman Cummings. The people she ought to be interviewing.
    Mr. Carroll. A list of what? I do not know who she wants to 
interview. If she would tell me she will interview, I will make 
them available. I mean 80 employees.
    Chairman Cummings. Okay, let me put it like this.
    Mr. Carroll. Okay.
    Chairman Cummings. Now this is not deep, man. All I am 
saying is, she can tell you the kind of information she needs. 
You will have that.
    Mr. Carroll. Great.
    Chairman Cummings. Then I want you to look at that and say, 
these are the people, and you got a brilliant young lady 
sitting behind you, because we work with her quite a bit. I 
forgot your name, I am sorry.
    Mr. Carroll. It is Gala. Sitting behind me?
    Chairman Cummings. She is absolutely brilliant and she has 
a phenomenal --
    Mr. Carroll. She is brilliant.
    Chairman Cummings. No, seriously. I mean seriously. The 
word on the street is that she is the guru.
    [Laughter.]
    Mr. Carroll. Did she pay you to say that?
    [Laugher.]
    Chairman Cummings. No, no. That is a fact.
    Mr. Carroll. I believe you. I agree.
    Chairman Cummings. And you know I -- I mean, you know what 
I told you?
    Mr. Carroll. Yes sir.
    Chairman Cummings. People who are smart. She has got it. 
And compassionate for the issues. So just figure out --
    Mr. Carroll. Absolutely.
    Chairman Cummings. Who she -- she will tell you what she 
needs. You will talk to your staff and say --
    Mr. Carroll. Come to Gala.
    Chairman Cummings [continuing]. you got that information? 
This is who we are going to make available to Ms. McNeil. How 
about that?
    Mr. Carroll. Yes sir.
    Chairman Cummings. All right. We are doing fine. I am 
almost finished. Let us talk about naloxone for a minute.
    Mr. Carroll. Sure.
    Chairman Cummings. You know, one of the reason I think, and 
I was surprised too Welch, but they have been rationing the 
drug. You know that? They ration it. In Baltimore, it is so 
expensive and we had one of the most progressive or had -- she 
is now the head of Planned Parenthood, Dr. Wynn, Elaine Wynn. 
She is one of the most progressive and I mean assertive people 
with regard to naloxone and drug addiction, okay. And she 
wanted to give out a lot to all our first responders and 
everything. She could not do it. She had to literally ration 
it. Why? We could not afford it. We could not afford, you know, 
because it has gone up so much.
    So I do not know whether you all know, but a number of us, 
about two or three years ago wrote all the attorney generals in 
the United States and said please try to negotiate and bring 
this price down on the naloxone. Because it does save lives.
    I have literally, literally seen people's life saved. My 
wife and were leaving a dinner together, and that must have 
been about a year ago. And somebody just dumped somebody right 
in front of the hotel where we coming out of. And the next -- 
because apparently these kids were at a party.
    Mr. Carroll. Right.
    Chairman Cummings. Just threw him -- they just dumped him 
out of the car. And then I asked the doorman. I said, ``Does 
this happen all the time?'' He said, ``It happens about, all 
the time.'' And then some -- then they came along and, you 
know, did the injection. The person came, came to life. So it 
is a miracle drug. No doubt about it. Can you -- do you -- can 
you think of anything and Mr. Carroll, this is not a ``gotcha'' 
question, but I really want to know. I think that you could be 
the great spokesperson that comes out there and says, ``You 
know I'm the drug czar.'' I know you do not like that word, but 
drug czar. ``And I have been appointed to do this job. Please, 
manufacturers of naloxone, bring your prices down. Save some 
lives.''
    You know, you just said you travel all around the country. 
And you see the damage. You would be the greatest spokesperson. 
Do you realize that if you went on television and did that, you 
may not think it may make a difference, but one thing is for 
sure, it will stop it from going up? I know it has been 
leveling off. You do not have to tell me. I got that, but the 
price that is.
    Mr. Carroll. Yes sir.
    Chairman Cummings. But I am saying, those are the kind of 
things that mean something. You follow me? Can you think of 
anything else you might be able to do?
    Mr. Carroll. I participated in Pennsylvania, I used to work 
there, and I will work with Pennsylvania. We were able to have 
a naloxone giveaway day. And I called in to one of the media 
stations that were advertising this for residents of the state. 
I will find out from them how they were able to afford to get 
so much medication and where people could just, you know, come 
for naloxone medication. Come in and they would hand it -- give 
them training and give it to them for free. I will find out how 
they did that. And working with the pharmaceutical companies, 
this really is a bipartisan issue.
    Maybe I can get help from you and the ranking member. We 
could with them together and talk to them and saying, what can 
we do to make sure this is getting to more people, more first 
responders.
    Chairman Cummings. And Azar.
    Mr. Carroll. And I will do training -- if you want I will 
get them to do training up here. And if you lawyers will let 
it, we'll try to give you naloxone so you can have it in your 
pocket as well.
    Chairman Cummings. Thank you very much.
    Mr. Carroll. Thank you.
    Chairman Cummings. Now I just said you might want to work 
with Azar. You think that is --
    Mr. Carroll. Yes, I talk to them all the time.
    Chairman Cummings. Yes, I mean that is a perfect person. He 
seemed to be a good guy who would be sensitive to these kind of 
things.
    Mr. Carroll. I think he is a compassionate fellow as well.
    Chairman Cummings. Well, I am about to wrap up, but I got 
to ask you this because you kind of threw me off for a minute 
then.
    Mr. Carroll. Oh sorry.
    Chairman Cummings. That is Okay. You said something about 
--
    Mr. Carroll. You kind of threw me off a couple of times, 
too.
    Chairman Cummings. Oh, I am sure I did. You said something 
about when the healthcare emergency was established, it was 
established to -- and maybe -- yes, it had to be you. You are 
the only person who could of said it. It was to ``bring 
awareness.'' What does that mean?
    Mr. Carroll. Well I mean I was not in ONDCP at the time. 
What I am saying is that --
    Chairman Cummings. But what did you mean?
    Mr. Carroll. Yes sir. What I meant was the greatest -- what 
I think is one of the greatest benefits of when the President 
declared the opioid crisis was to bring awareness to this 
issue. So many people did not know about it. So many people did 
not know what other families were going through. And so, I 
think that was one of the greatest benefits is to really bring 
awareness. I mean there are other -- as we talked about -- with 
one of the members of the committee. There was not really -- I 
know Ms. McNeil talked about it, too. That there really was not 
much money associated with the declaration of it. But really, I 
mean the greatest benefit that was making sure that our own 
Americans understood what we are facing. That is what I was 
trying to say, sir.
    Chairman Cummings. You are fine. All right. I want to again 
thank all of you. And I am looking with great excitement to 
seeing you again. Week of May 6th. All right?
    Mr. Carroll. Yes sir. See you then. No, I will see you 
before then.
    Chairman Cummings. Good. No, you go ahead. Oh you want to 
see me again?
    Mr. Carroll. Yes sir. I will meet you in Baltimore.
    Chairman Cummings. All righty. Ms. McNeil, thank you. Thank 
you. I want to thank you all for what you have done. Thank you, 
Mr. McDaniel. I hope that you understand what I am trying to 
do. Life is short. Life is short. And I want you to understand, 
Mr. Carroll, the reason why I have so much urgency, I spent six 
months in the hospital over the last year.
    Mr. Carroll. Sorry.
    Chairman Cummings. Over a year ago, now. But, you know, 
when you get to do that, you think about your life. But you 
also think about your death. And I thought about all the people 
that I have known who have died over drug overdoses. The first 
person that I knew of that died of a drug overdose, I was eight 
years old. I am 68. I did not understand what an overdose was. 
But I knew that this was a guy in our neighborhood who we 
looked up to. The next thing you know a little kid had said the 
guy died. What are you talking about, died of drug overdoses? 
Well only thing I knew about drugs was castor oil. I mean, you 
know, medicine. Prescription drugs. But my guy, they guy I 
looked up to was dead. That is why I could empathize with what 
you said. Because if you went into my block in Baltimore, I 
guarantee you there is not one family out of about maybe 40 
families who have not been severely touched by drugs. And it 
has no boundaries.
    When Joe Scarborough and I were working on these different 
issues, I will never forget, I went to Ohio and a Congressman 
had invited me up there. And we went to a drug meeting. And 
where, you know, parents were getting together and talking and 
sheriffs and all that. And if I had closed my eyes -- this was 
a rural, white neighborhood. I mean rural. If I had closed my 
eyes, I would of swore I was in the inner city of Baltimore.
    They talked about the same things. They talked about how 
drugs were taking over their town and how it destroyed the 
fabric of the people in their families. They talked about how 
people were, did not even know their relatives anymore. Because 
as you know, drugs -- people on drugs lie, steal, cheat, 
whatever they got to do trying to deal with that pain. My point 
is that we have now moved, and people I think are -- kind of 
used to paint the drug problem as a Black thing. It is not a 
Black thing. And you know that. And that is another word I want 
to get out to the world.
    Finally, thank God, we are dealing with is not as a Black/
White thing. Not as a rural/city thing. None of that. We are 
dealing with as a human problem. A human ailment. And you know 
what? You are so blessed. You are so blessed for a man of your 
stature believing what you believe. Having the compassion and 
having gone through what you have been through and you know 
what, I again, you know, it is not -- you know, I know it was 
painful dealing with -- I do not know if it was a relative. 
Relative, friend?
    Mr. Carroll. Yes sir.
    Chairman Cummings. Okay friend. I will say friend.
    Mr. Carroll. Relative.
    Chairman Cummings. Okay.
    Mr. Carroll. Yes sir.
    Chairman Cummings. It is painful. But you know what, it 
prepares you for this.
    Mr. Carroll. Absolutely.
    Chairman Cummings. Another thing I tell my staff. 
Everything that happens to you up until this moment, good, bad 
and ugly, prepares you for this moment.
    So that is a part of your training to have that compassion 
to be the best you can be. To take your smarts and apply them 
to situations where you help somebody avoid tragedy.
    Mr. Carroll. Thank you.
    Chairman Cummings. And so I thank you so much. I am sorry 
we had to go through what we went through. But you got to 
answer me one more question. You -- one of the -- in fairness 
to you. This is in fairness to you. One of the times we had to 
postpone the hearing is because you had to go to China.
    Mr. Carroll. Yes sir. And that was --
    Chairman Cummings. I am going to let you talk.
    Mr. Carroll. That was canceled because the Colombian 
President came to town. I had to meet with the Colombian 
President. And so did the Chinese President. Last minute but --
    Chairman Cummings. What happened?
    Mr. Carroll. I had to meet with the Colombian President and 
so did the Chinese President.
    Chairman Cummings. Oh, so you did not go to China?
    Mr. Carroll. No, I met with the Colombian President, 
instead.
    Chairman Cummings. Fine, fine, fine. What I was getting 
ready to ask you --
    Mr. Carroll. I just wanted to be candid and tell you what 
happened.
    Chairman Cummings. We can still -- this is the last 
question.
    Mr. Carroll. Yes sir.
    Chairman Cummings. I thought you had gone to China, but 
when I heard you talk about where fentanyl is coming from.
    Mr. Carroll. Yes sir.
    Chairman Cummings. I was just wondering what can we do to 
try to affect that. Are you talking to the President? We know 
where it is coming from. What can we do?
    Mr. Carroll. You know we have taken a good first step. At 
the G20 down in South American a few months ago, the two 
Presidents got together and President Xi of China agreed to do 
class scheduling of fentanyl. Now what we have to do, and this 
is why it is so important for us to go and we have been working 
with all of our law enforcement partners, and I will share the 
strategy with you off camera.
    Chairman Cummings. Okay.
    Mr. Carroll. Of how we are doing it. But to go them, 
repeatedly and say, ``Where are you in terms of scheduling it? 
What is the timeline for doing this?'' And, of course, any time 
when you are dealing with a foreign entity like this, you want 
to make sure that not only do they pass the legislation, which 
should not be terribly hard in China, to pass legislation. Is 
to make sure that they start enforcing it. The other concern, 
of course, as part of the emerging threats is if we squeeze on 
China to make sure the fentanyl production does not go to other 
places. But let us talk about that off camera.
    Chairman Cummings. I promise you will. Thank you all very 
much. Oh wait a minute, hold on.
    Without object, all members will have five legislative days 
to submit additional written questions for the witnesses, to 
the chair, which will be forwarded to the witnesses for their 
response. I ask our witnesses to please respond properly.
    Thank you very much.
    [Whereupon, at 1:34 p.m. the committee was adjourned.]

                      [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
